<html>
<title> - HEARING TO REVIEW SHORT AND LONG TERM COSTS OF HUNGER IN AMERICA</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



    HEARING TO REVIEW SHORT AND LONG TERM COSTS OF HUNGER IN AMERICA

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON DEPARTMENT OPERATIONS,
               OVERSIGHT, DAIRY, NUTRITION, AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 23, 2008

                               __________

                           Serial No. 110-43


          Printed for the use of the Committee on Agriculture
                        agriculture.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
51-220                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

TIM HOLDEN, Pennsylvania,            BOB GOODLATTE, Virginia, Ranking 
    Vice Chairman                    Minority Member
MIKE McINTYRE, North Carolina        TERRY EVERETT, Alabama
BOB ETHERIDGE, North Carolina        FRANK D. LUCAS, Oklahoma
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 ROBIN HAYES, North Carolina
DENNIS A. CARDOZA, California        TIMOTHY V. JOHNSON, Illinois
DAVID SCOTT, Georgia                 SAM GRAVES, Missouri
JIM MARSHALL, Georgia                MIKE ROGERS, Alabama
STEPHANIE HERSETH SANDLIN, South     STEVE KING, Iowa
Dakota                               MARILYN N. MUSGRAVE, Colorado
HENRY CUELLAR, Texas                 RANDY NEUGEBAUER, Texas
JIM COSTA, California                CHARLES W. BOUSTANY, Jr., 
JOHN T. SALAZAR, Colorado            Louisiana
BRAD ELLSWORTH, Indiana              JOHN R. ``RANDY'' KUHL, Jr., New 
NANCY E. BOYDA, Kansas               York
ZACHARY T. SPACE, Ohio               VIRGINIA FOXX, North Carolina
TIMOTHY J. WALZ, Minnesota           K. MICHAEL CONAWAY, Texas
KIRSTEN E. GILLIBRAND, New York      JEFF FORTENBERRY, Nebraska
STEVE KAGEN, Wisconsin               JEAN SCHMIDT, Ohio
EARL POMEROY, North Dakota           ADRIAN SMITH, Nebraska
LINCOLN DAVIS, Tennessee             TIM WALBERG, Michigan
JOHN BARROW, Georgia                 BOB LATTA, Ohio
NICK LAMPSON, Texas
JOE DONNELLY, Indiana
TIM MAHONEY, Florida
TRAVIS W. CHILDERS, Mississippi

                                 ______

                           Professional Staff

                    Robert L. Larew, Chief of Staff

                     Andrew W. Baker, Chief Counsel

                 April Slayton, Communications Director

           William E. O'Conner, Jr., Minority Staff Director

                                 ______

   Subcommittee on Department Operations, Oversight, Nutrition, and 
                                Forestry

                     JOE BACA, California, Chairman

EARL POMEROY, North Dakota           CHARLES W. BOUSTANY, Jr., 
LINCOLN DAVIS, Tennessee             Louisiana, Ranking Minority Member
NICK LAMPSON, Texas                  JERRY MORAN, Kansas
STEVE KAGEN, Wisconsin               STEVE KING, Iowa
NANCY E. BOYDA, Kansas               RANDY NEUGEBAUER, Texas

               Lisa Shelton, Subcommittee Staff Director

                                  (ii)








                             C O N T E N T S

                              ----------                              
                                                                   Page
Baca, Hon. Joe, a Representative in Congress from California, 
  opening statement..............................................     1
    Prepared statement...........................................     3
Boustany, Jr., Hon. Charles W., a Representative in Congress from 
  Louisiana......................................................     4
Goodlatte, Hon. Bob, a Representative in Congress from Virginia, 
  prepared statement.............................................     6
Kagen, Hon. Steve, a Representative in Congress from Wisconsin, 
  opening statement..............................................     7
Moran, Hon. Jerry, a Representative in Congress from Kansas, 
  prepared statement.............................................     6
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, prepared statement..................................     5

                               Witnesses

Nord, Dr. Mark, Sociologist, Economic Research Service, U.S. 
  Department of Agriculture, Washington, D.C.; accompanied by 
  Steven Carlson, Director, Office of Research and Analysis, Food 
  and Nutrition Service, U.S. Department of Agriculture..........     8
    Prepared statement...........................................    10
Brown, Dr. J. Larry, Visiting Scholar, Harvard University School 
  of Public Health, Boston, MA; accompanied by Donald S. Shepard, 
  Ph.D., Professor and Economist, Schneider Institutes for Health 
  Policy, Heller School, Brandeis University, Waltham, MA........    20
    Prepared statement of Dr. Brown..............................    22
    Prepared statement of Dr. Shepard............................    24
Cutts, M.D., Diana B., Faculty Physician, Hennepin Country 
  Medical Center; Assistant Professor of Pediatrics, University 
  of Minnesota; Principal Investigator, Children's Sentinel 
  Nutrition Assessment Program (C-SNAP), Minneapolis, MN.........    68
    Prepared statement...........................................    70
Manalo-LeClair, George, Senior Legislative Director, California 
  Food Policy Advocates, Oakland, CA.............................    73
    Prepared statement...........................................    75
Weill, James D., President, Food Research and Action Center, 
  Washington, D.C................................................    79
    Prepared statement...........................................    80

                           Submitted Material

McGovern, Hon. James P., a Representative in Congress from 
  Massachusetts, prepared statement..............................     6
Submitted report from Joint Center for Political and Economic 
  Studies Health Policy Institute................................    99

 
    HEARING TO REVIEW SHORT AND LONG TERM COSTS OF HUNGER IN AMERICA

                              ----------                              


                        WEDNESDAY, JULY 23, 2008

                  House of Representatives,
 Subcommittee on Department Operations, Oversight, 
                           Nutrition, and Forestry,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 1300, Longworth House Office Building, Hon. Joe Baca 
[Chairman of the Subcommittee] presiding.
    Members present: Representatives Baca, Pomeroy, Kagen, 
Moran, and Boustany.
    Staff present: John Riley, Lisa Shelton, Alejandra 
Gonzalez-Arias, Tyler Jameson, Kristin Sosanie, Pam Miller, and 
Jamie Weyer.

    OPENING STATEMENT OF HON. JOE BACA, A REPRESENTATIVE IN 
                    CONGRESS FROM CALIFORNIA

    The Chairman. I would like to call the hearing of the 
Subcommittee on Department Operations, Oversight, Nutrition, 
and Forestry to review the short and long term costs of hunger 
in America to order. With that, I would like to begin with an 
opening statement and then call on Mr. Boustany to make a 
statement and ask any of the ex officios who are here if they 
want to make a presentation if they show up.
    I would like to start with my opening statements.
    Good morning to all of you. And thank you for being here 
with the Subcommittee to examine the short and long term costs 
of hunger and that is a very important subject now as we look 
at what is going on in our country. I am especially grateful to 
our outstanding witnesses for making the effort to be here 
today. I appreciate your willingness to educate us. And I state 
to ``educate us'' on the result of various studies you have 
conducted. And the more education we receive, the better, more 
knowledgeable we are in dealing with the problem. I would like 
to acknowledge our new Ranking Member, Congressman Boustany who 
has now taken over the responsibility and will be here. So I 
would officially like to recognize him and then welcome him as 
the new Ranking Minority Member.
    With his medical background, I am sure that he will be able 
to provide thoughtful questions and guidance. And I appreciate 
you being a medical doctor and caring for many of the patients 
in the past. And I am sure you do the same thing here in the 
legislature as you look at policies and other directions. I 
look forward to working with Members in the Subcommittee on 
this issue.
    And I would like to state that 35 million people in our 
country are food insecure, at risk of going hungry. This is a 
statistic that I use regularly to emphasize that hunger is not 
just a global problem, but a daily fact of life in our own 
states, towns and neighborhoods. Statistics are easily said, 
but what is the real meaning? What do the numbers mean to those 
of us who are fortunate enough to know where our next meal is 
coming from? Who are these people who live and work among us? 
Are we truly aware of the impact that hunger has on our daily 
lives? What does this mean to us as Members of Congress?
    And that is a deep meaning because when you look at really 
the poor, the disadvantaged and others that are going hungry in 
the true meaning of what it is like to put food on the table, 
what information is available to us to guide us in making the 
best policies? How can we best serve the needs of hungry 
Americans, and at the same time, spend Federal dollars wisely?
    Today, with the help of the experts on this panel, we will 
begin to answer some of these questions, and I hope we will ask 
questions to better understand the problems and carefully 
create solutions that will best use our efforts and resources. 
That is important, how we use our efforts and the resources.
    Over the past 2 years while we were consumed with the work 
in the 2007-2008 Farm Bill, some interesting studies were 
published. These studies will help us to examine the connection 
between nutrition programs and health, but both the health of 
individuals and the health of local and state economies. 
Although we have just successfully passed the farm bill and 
invested more than $10 billion in nutrition, it is always 
appropriate for us to take a look at how Congress spends its 
hard-earned dollars.
    Recent news showed us that food stamps are now feeding more 
than 28 million people, a record number. It is vital that we, 
both as Congress, as Members of Congress and citizens of this 
country, that we fully understand the workings of our country's 
largest supplemental feeding program. As I mentioned, hunger is 
more than just a number. The impact of hunger hits families, 
neighborhoods, towns and states. It is seen through poor 
health, poor attendance at both our schools and at work, among 
other things. But hunger is also expressed in dollars and 
cents. As a father, a grandfather and as an American, I am 
distressed by the human cost of hunger. But as a legislator, I 
am also troubled by the numbers that illustrate how hunger can 
mean a loss to funding for government entities. During these 
times of tight budgets, nutrition programs may be some of the 
best economic stimulus available. For example, I represent San 
Bernardino, California. The studies from the California Food 
Policy Advocates, who we will hear from today, show that 
because of the low participation in food stamps--and there 
again, low participation in food stamps in a lot of the areas 
where people are not even aware, and our state is not even 
taking advantage of the food stamps; which also means 
additional revenue that goes back into each of the states, 
cities and counties by that utilization.
    But most important is feeding people that need help. San 
Bernardino County is missing now an additional $371 million in 
economic activity. And that is just the cost in my area. And I 
am not sure what it would be for other counties, other states 
and other cities. So today we will listen and learn from the 
fine panel of witnesses about their work to quantify the impact 
of hunger in our country. I hope this hearing will build an 
important body of evidence so that we can continue to work 
together to fight hunger.
    [The prepared statement of Mr. Baca follows:]

Prepared Statement of Hon. Joe Baca, a Representative in Congress from 
                               California
    Good morning and thank you all for being here before this 
Subcommittee--to examine the short and long term costs of hunger in 
America.
    I am especially grateful to our outstanding witnesses for making 
the effort to be here today.
    I appreciate your willingness to educate us on the results of the 
various studies you have conducted.
    Also, I would like to acknowledge our new Ranking Member, 
Congressman Boustany, and thank him for his interest in this hearing.
    With his medical background, I am sure he will be able to provide 
thoughtful questions and guidance.
    I look forward to working with you on this and other issues before 
our Subcommittee.
    Thirty-five million people in our country are ``food insecure.'' 
This is a statistic that I use regularly to emphasize that hunger is 
not just a global problem, but a daily fact of life in our own states, 
towns and neighborhoods.
    Statistics are easily said, but what is their real meaning? What 
does this mean to those of us fortunate enough to know where our next 
meal is coming from? Who are these people who live and work among us? 
How are we affected by them and their needs? Are we truly aware of the 
impact the hungry have on our daily lives? And what does this mean to 
us as Members of Congress? What information is available to us--to 
guide us in making the best policy decisions? How can we best serve the 
needs of hungry Americans and, at the same time, spend Federal funds 
wisely?
    Today, with the help of the experts on this panel, we will begin to 
answer some of these questions, and, I hope, ask new questions to 
better understand the problems and carefully create a solution that 
will best use our efforts and resources.
    Over the past 2 years--while we were consumed with work on the 
2007-2008 Farm Bill--some interesting studies were published. These 
studies will help us to examine the connection between nutrition 
programs and health; both the health of individuals--and the health of 
local and state economies.
    Although we just successfully passed a farm bill that invests more 
than $10 billion in nutrition--it is always appropriate for us to take 
a look at the manner in which Congress spends our hard-earned tax 
dollars.
    Recent news shows us that Food Stamps are now feeding more than 28 
million people--a record number. It is vital that we--both as Members 
of Congress and as citizens of this country--fully understand the 
intersection between hunger and our country's largest supplemental 
feeding program.
    As I have mentioned, hunger is more than just a number. The impact 
of hunger hits families, neighborhoods, towns and states. It is seen 
through poor health, and poor attendance at school and work, among 
other things. But hunger is also expressed in dollars and cents.
    As a father, grandfather, and a citizen, I am distressed by the 
human costs of hunger. But as a legislator, I am also troubled by the 
numbers that illustrate how hunger can mean a loss of funding for 
government entities. During these times of tight budgets, those of us 
who serve in government need to understand that nutrition programs may 
be some of the best economic stimulus available.
    For example, I represent San Bernardino County, California. The 
study from the California Food Policy Advocates, who we will hear from 
today, shows that because of low participation in food stamps, San 
Bernardino County is missing out on an additional $371 million in 
economic activity.
    So, today we will listen and learn from this fine panel of 
witnesses about their work to quantify the impacts of hunger in our 
country. I hope this hearing will build on this important body of 
evidence so we can work with determination and cooperation against 
hunger.

    The Chairman. So at this time, I would like to turn it over 
to our Ranking Member, Congressman Boustany, to say a few 
words.

     OPENING STATEMENT OF HON. CHARLES W. BOUSTANY, Jr., A 
           REPRESENTATIVE IN CONGRESS FROM LOUISIANA

    Mr. Boustany. Thank you, Mr. Chairman. And I want to offer 
my thanks to you for holding this hearing on a very important 
issue. We have done a lot of work on the farm bill, as you have 
said, and we need to build off of this. So I am pleased that 
the Subcommittee is starting this process. I want to offer my 
greetings to our distinguished panel and I look forward to 
hearing your testimony.
    Clearly without question, this problem of the cost of 
hunger in the United States is a serious problem. And we must 
tackle this problem with policies and programs in an effective 
way. While everyone is witnessing the effect of increasing 
energy costs that we are all seeing at the pump, it is 
important to understand how these high prices are impacting 
other areas of our economy. The rising prices in grains, other 
commodities, increased transportation costs, the regulatory 
environment to ensure food safety and the safety of our food 
products are causing food prices to rise. All of this is having 
an impact. This rise is having a greater impact on low and 
middle-income earners. Far too many families, working families, 
face difficult decisions about how best to spend their money. 
Choosing between food, fuel, housing needs or medical expenses 
is a dilemma that many of these families are facing today. And 
Congress, I believe, has a responsibility to take the lead in 
finding ways to relieve this pressure.
    As a surgeon, a heart surgeon, I understand how important a 
healthy lifestyle can be in avoiding illness and living a more 
active and productive life. And furthermore, I know firsthand 
how important a person's eating habits can be in determining 
how well they will recover from surgery or other medical 
procedures and treatments. And in fact, back when I was in 
training, in the early days, we used what we called perinatal 
nutrition, intravenous nutrition in the intensive care unit.
    Before we had this, patients basically died of starvation 
in the intensive care unit because there was no way to feed 
them. And one of the great advances in surgery was to come up 
with ways to actually provide this IV nutrition as a bridge to 
get people through critical illness to boost their immune 
systems and boost their ability to ward off disease and to 
heal. And without that, the mortality rates in intensive care 
units were astronomical. And today we have seen significant 
improvement in those mortality rates because of these advances. 
That is in a clinical setting.
    The same translates outside the clinical setting, outside 
the hospital for families who can't afford to provide for their 
nutrition. The prevention of a disease or illness is much 
cheaper and preferred for the individual in terms of quality as 
well as for our society than treatment of the problem at a 
later stage. And I know our witnesses will address this topic. 
And I look forward to hearing more about these costs and the 
impact it is having on our society.
    Finally in the most recent farm bill, significant increases 
in funding were made available for the Food Stamp Program and 
other supplemental nutrition programs. And I am interested to 
hear today about how best to improve these programs in order to 
achieve higher rates of participation by those families who are 
in the greatest need of help. As I have said before, in regard 
to other programs, particularly in the health care arena, 
having coverage, meaning some sort of insurance or governmental 
insurance product to cover health care doesn't necessarily mean 
access to this care. There is still a disconnect in health 
care.
    And we are seeing the same thing, I believe, in these 
nutrition programs where we have programs, but if families 
aren't availing themselves of the program that is in place, 
then it is not doing what we intended it to do. So we really 
need to look at this.
    So while improving access and delivery of these programs 
will improve the lives of millions of deserving Americans, 
simply adding more funding to the program will only raise the 
burden of every American unless we are making sure that those 
dollars are really being used in the most effective way.
    So I am committed to tackling this problem of hunger in the 
U.S. while also trying to be a responsible steward of the 
American taxpayers' money. And I believe today's hearing is an 
important one. And I believe that Chairman Baca has a 
tremendous passion for this. He brings tremendous insight into 
this problem. And I am pleased to work with him on this issue. 
So I look forward to the testimony today, Mr. Chairman, thank 
you. I yield back my time.
    The Chairman. Thank you very much, Mr. Boustany.
    I would request that any other Members here that have any 
statements they can submit them for the record.
    [The prepared statements of Messers. Peterson, Goodlatte, 
Moran, and McGovern follow:]

Prepared Statement of Collin C. Peterson, a Representative in Congress 
                             from Minnesota
    Thank you Mr. Chairman.
    When people think of the Agriculture Committee, one of the things 
they rarely think of is hunger and the absence of food. from the farm 
policy standpoint, we take great pains to ensure that the country's 
farmers are able to continue to provide the nation with a safe, stable, 
and abundant supply of food. Unfortunately, the benefits of that food 
supply are not necessarily available to all and too many families have 
to face the devastating effects of hunger.
    With the completion of the 2008 Farm Bill, we took great strides in 
fighting hunger here in the United States and abroad. We updated the 
Food Stamp Program, indexed benefits to inflation, and even in these 
times of budgetary constraints, provided $10 billion in new money for 
important nutrition programs like The Emergency Food Assistance Program 
(TEFAP).
    But our work is not done, because the effects of hunger do not only 
apply to those struggling to provide their families with a healthy 
meal. The cost of hunger spills over into other areas of society, and 
government as well--whether it be through health, education or economic 
policies.
    That's why I'm glad the Chairman and Ranking Member have called 
this hearing today, to help us sort through the costs of hunger in the 
short- and long-term. I look forward to the testimony of the witnesses 
and thank you all for coming.
                                 ______
                                 
Prepared Statement of Hon. Bob Goodlatte, a Representative in Congress 
                             from Virginia
    I want to thank the witnesses for taking time out of their busy 
schedules to join us today to discuss the short and long term effects 
of hunger in America. I appreciate you sharing with us the information 
you have found through research, studies and personal experiences.
    While one may argue more can be done to address hunger, the 
recently passed farm bill makes an unprecedented investment in 
nutrition programs to the tune of $10.361 billion over current spending 
levels. When we talk about the farm bill, many believe all of the 
funding goes directly to farmers. The truth is that nearly 70 percent 
of the $288 billion goes to the nutrition title alone. This Committee 
has made an incredible commitment to nutrition funding that hasn't even 
been implemented yet, and still much of today's testimony asks for more 
funding.
    Before we consider new spending, I think we owe it to the taxpayers 
to evaluate the programmatic changes that will be made by the farm 
bill. Like the rest of the Members, I will be interested to see how 
USDA implements these new provisions. Furthermore, I think it is 
important to note that the Food Stamp Program is designed to expand to 
fit the need. Food stamp participation is at an all-time high of 28.1 
million people. As more people are eligible and choose to participate, 
the program will be able to accommodate their needs.
    While it is easy to ask for more nutrition funding to solve the 
problems, we in Congress have to ask ourselves the tough question--if 
we increase funding for nutrition, where are we going to make cuts in 
spending? Under PAYGO rules, to increase nutrition spending, we will, 
have to cut spending on other meritorious programs or raise taxes. 
Given our tight budget situation, I hope we can consider options beyond 
providing additional money. Increasing spending without offsets only 
adds to our Federal deficit--which also has the short and long term 
effects on all of us, our children and the generations to come.
    Thank you.
                                 ______
                                 
 Prepared Statement of Hon. Jerry Moran, a Representative in Congress 
                              from Kansas
    Like most hearings in this Subcommittee, today's hearing is 
important. It is important because the testimony we will hear is not 
just about human suffering or about families sitting down to tables 
without adequate food on them. This hearing is going to try to get at 
the effect, the cost of hunger to our country.
    It is clear that hungry students struggle to learn as well as those 
with good nutrition. And if today's students are tomorrow's workforce 
then we should be worried about under-performance in our economy. 
Hungry students struggle to stay awake and pay attention in class. Or 
even be in class. Many students cannot even make it to class and 
employees to work because of the effect poor nutrition has on the body. 
Unfortunately, those who cannot afford food likely cannot afford health 
insurance. Without insurance, many of the malnourished in our country 
will head to the Emergency Room when they are sick. ERs are the most 
expensive way to deliver health care and so everyone else's health care 
bills go up, which is one of the largest problems our country faces.
    I am glad we have economists here today. This issue often involves 
stories and anecdotes that tug at your heart strings. I appreciate 
those stories because they draw me in and get me engaged in the issue. 
But as this Committee makes decisions on programs that will affect 
millions of people we must vote based on data and information that will 
help communities, churches and individuals feed the hungry and help 
lead them out of poverty.
    That is why last year my colleague Jim McGovern and I requested a 
hearing like this to look into Dr. Brown's study on the cost of hunger. 
I would like to hear from our witnesses how close we are to a fully fed 
nation and what programs can help accomplish that. It is very likely 
that the investment in our food insecure households could outweigh the 
cost to our nation's charities, health care providers, lost educational 
opportunities and lowered workforce productivity.
                                 ______
                                 
   Prepared Statement of Hon. James P. McGovern, a Representative in 
                      Congress from Massachusetts
Hon. Joe Baca,
Chairman,
Subcommittee on Department Operations, Oversight, Nutrition, and 
Forestry,
Committee on Agriculture,
Washington, D.C.

    Dear Chairman Baca,

    I commend you on holding today's hearing to review the short- and 
long-term costs of hunger in America. As you know, I have long believed 
that hunger is a political condition that, while solvable, requires 
political leadership. Hearings like these are necessary steps in 
raising awareness of the scourge of hunger and, specifically, on the 
economic costs of hunger on our society.
    Despite the efforts of the Federal Government and the best efforts 
of the nonprofit, anti-hunger community, hunger is getting worse in 
America. Too many go without food at some point during the year, and 
this has a real cost to our nation. Last year, with the help of the 
Sodexho Foundation, Dr. J. Larry Brown, Dr. Donald Shepard, Dr. Timothy 
Martin, and Dr. John Orwat released a study titled ``The Economic Cost 
of Domestic Hunger: Estimate Annual Burden to the United States.'' 
Stephen J. Brady, President of the Sodexho Foundation, should be 
commended for funding this study and for his dedicated work in ending 
hunger here in the United States. This important study found that the 
minimum cost of hunger is $90 billion, and that the true cost is likely 
much more than that. While I believe we have a moral responsibility to 
end hunger once and for all, this study makes it clear that hunger is a 
real financial burden on our country.
    We have opportunities to end hunger in our nation. Although the 
domestic nutrition title clearly is not enough to end hunger in 
America, the farm bill is a good first step. Next year Congress will 
reauthorize the Child Nutrition Programs, where we will have an 
opportunity to invest in the school meal programs and after-school 
feeding programs. But it's clear we must do more to end hunger once and 
for all in America. I believe your hearing today is a good step in that 
direction and that it will prove that doing nothing not only impacts 
the person who is forced to go without food but that doing nothing 
actually has a fiscal impact on this country.
            Sincerely,

Hon. James P. McGovern,
Member of Congress.

    The Chairman. Before I call on the witnesses, I would like 
to call on Steve Kagen to say a few words. Our ex officios are 
not here yet.

  OPENING STATEMENT OF HON. STEVE KAGEN, A REPRESENTATIVE IN 
                    CONGRESS FROM WISCONSIN

    Mr. Kagen. Thank you, Mr. Chairman. I have to point out to 
everyone that there are two doctors up here on the podium so it 
is two to one, Joe.
    The Chairman. Oh, I can be an honorary doctor.
    Mr. Kagen. We will make you a doctor of nutrition. I will 
just point out to everyone here in the room, everyone listening 
across the country that we are seven meals away from anarchy. 
If you take food away from people for seven meals in a row, as 
we saw in Louisiana and parts of Mississippi with Katrina, we 
human beings cease to be civilized human beings. So I take this 
issue of nutrition, this other issue of housing, our economy 
very seriously. But if our children are not getting the 
nutrition that they require to develop into healthy productive 
citizens, we will all pay that price over the long term.
    In my district, northeastern Wisconsin in Green Bay, the 
City of Green Bay, 45 percent of the children attending public 
school now qualify for free or reduced meals at school. Now 
that is a generational shift, and I think my district really 
mirrors the country. I look forward to your testimony today. 
And if I don't have the opportunity to hear you outright here, 
I will be studying your testimony. I look forward to your 
communications with our Committee. I think you will find that 
all of us understand the value of good nutrition and aiming at 
our target correctly, getting our resources to those who need 
it the most. And I look forward to working together with you, 
Mr. Chairman, to guarantee that hunger in America becomes 
something, where it belongs, in our past. Thank you.
    The Chairman. Thank you very much. With that, I would like 
to introduce members of the panel that are here. I would like 
to welcome you again. Thank you very much for taking time from 
your busy schedule to inform us and give us the kind of 
knowledge that will make the kind of programs more effective 
and also deal with the problems that we have with hunger. We 
want to be cost effective in the programs that we have as we 
look at Federal and state to make sure that they are utilized 
effectively and not just put in the money to address the issue. 
We want to actually address the issue by allowing the people 
that need the assistance that do qualify will get it in each of 
our counties, in each of our states as well.
    With that, I would like to thank Dr. Mark Nord, 
Sociologist, Economic Research Service, USDA, Washington, D.C. 
Welcome and thank you for being here. And he will be 
accompanied by Steven Carlson, Director, Office of Research and 
Analysis, Food and Nutrition Service with the U.S. Department 
of Agriculture from Washington, D.C. And then we also have Dr. 
J. Larry Brown from Harvard University School of Public Health, 
Boston, Massachusetts, accompanied by Donald S. Shepard, 
Economist, as well from the Heller School, Brandeis University 
from Waltham, Massachusetts. And also we have Dr. Diana Cutts, 
Principal Investigator of Children's Sentinel Nutrition 
Assessment Program, and Faculty Physician of Hennepin County 
Medical Center, and Assistant Professor at the University of 
Minnesota, Minneapolis, Minnesota. And then, of course, we have 
Mr. George Manalo-LeClair, Senior Legislative Director from the 
California Food Policy Advocates from Oakland, California. And 
then we have James D. Weill, President of Food Research and 
Action Center from Washington, D.C. With that, let us begin by 
asking Dr. Nord to begin with his testimony.

  STATEMENT OF DR. MARK NORD, SOCIOLOGIST, ECONOMIC RESEARCH 
  SERVICE, U.S. DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.; 
                 ACCOMPANIED BY STEVEN CARLSON,
 DIRECTOR, OFFICE OF RESEARCH AND ANALYSIS, FOOD AND NUTRITION 
                  SERVICE, U.S. DEPARTMENT OF
                          AGRICULTURE

    Dr. Nord. Mr. Chairman, Members of the Committee, my name 
is Mark Nord. I am a Sociologist with USDA's Economic Research 
Service. My main expertise is in measuring and monitoring 
household food security, by which we mean households' 
consistent ability to afford adequate food. I appreciate the 
opportunity to speak to you today about food security and how 
USDA measures it. I am accompanied by Steven Carlson of the 
Food and Nutrition Service, who will also be available to 
answer questions.
    I will begin with these national statistics and then I want 
to go behind these statistics to describe how the food security 
of these households was measured. The reason for giving some 
detail on measurement is to provide as adequate an idea as 
possible of what the statistics mean. Our two word labels 
unfortunately don't really give adequate information about 
whether the conditions in food-insecure households are serious 
or not or how serious they are. Knowing the specific conditions 
that the households in each category reported will give a more 
complete picture of what the statistics mean.
    So 2006, our most recently published statistics, 89 percent 
of U.S. households were food secure throughout the entire year. 
They had access at all times to enough food for an active, 
healthy life for all household members. The remaining 10.9 
percent were food insecure. They were unable at times during 
the year to put adequate food on the table. These included four 
percent with the more severe condition we describe as very low 
food security. In these households, food insecurity was severe 
to the extent that food intake of some members was reduced and 
their eating patterns were disrupted at times during the year. 
The statistics come from a nationally representative survey of 
about 45,000 households and it is conducted by the Census 
Bureau for USDA.
    The food security of each household is assessed by a series 
of questions about their food situation. Questions range in 
severity from worrying about running out of food to not eating 
for a whole day. So let's look at responses to those specific 
questions to see what conditions were actually reported by 
households in each range of food insecurity.
    I should mention first that the food security of a 
household is determined by how many of these conditions they 
report. And to be classified as food insecure, a household must 
report at least three indicators of food insecurity. The more 
severe condition, very low food security is indicated by 
reports of six or more indications of food insecurity. You can 
think about the difference between low and very low food 
security as the difference between the reduced quality of food 
and reduced quantity or sufficiency of food intake. Households 
classified as having low food security--so this is the part of 
the food insecure population that is included in the 11 percent 
but not the four percent--the low food secure households 
basically report reductions in quality or variety of their 
diets but typically report few, if any, indications of reduced 
food intake. In 2006 households in this group, low food 
security, that are represented by the middle blue bars here, 
middle blue colored bars, and you is see they reported the 
least conditions. They couldn't afford to eat balanced meals, 
the food they bought didn't last, and they didn't have money to 
get more and they were worried that their food would run out. 
Few of them reported having to reduce the quantity of their 
food intake.
    On the other hand, households classified as having very low 
food security--this is the four percent of households in the 
more severe category--in 2006, almost all of them reported that 
an adult had cut the size of meals or skipped meals because 
there was not enough money for food, that they had eaten less 
than they felt they should because there was not enough money 
for food. And most reported that they had been hungry but did 
not eat because they could not afford enough food. One in three 
reported that an adult in the household did not eat for a whole 
day because there was not enough money for food. This is what 
it means to have very low food security, to experience these 
conditions at times during the year.
    It is important when interpreting these statistics to keep 
in mind that food insecurity in the U.S. is not usually 
chronic. So the prevalence on a given day, a typical day is 
much lower than our statistics which reflect whether this 
happened at any time during the year.
    Two more quick graphics now to wrap up. Children are 
usually protected from substantial reductions in food intake 
even in households with very low food security among adults. In 
2006, \6/10\ of 1 percent of households with children had 
conditions so severe that children also were subject to reduced 
food intake and disrupted eating patterns, that was about 
221,000 households.
    Over the last decade, the prevalence of food insecurity has 
moved approximately in parallel with the national poverty rate, 
it declined in the late 1990s, increased following the 
recession in 2001, declined after 2004. The prevalence of very 
low food security followed a similar pattern, except that it 
has remained essentially flat at four percent since 2004. Mr. 
Chairman, this concludes my statement. I will be glad to answer 
questions the Committee may have.
    [The prepared statement of Dr. Nord follows:]

  Prepared Statement of Dr. Mark Nord, Sociologist, Economic Research 
       Service, U.S. Department of Agriculture, Washington, D.C.
    Mr. Chairman and Members of the Committee, my name is Mark Nord, 
and I am a sociologist with the USDA's Economic Research Service. My 
main area of expertise is measuring and monitoring household food 
security--the extent to which households can consistently afford 
adequate food. I appreciate the opportunity to speak to you today about 
how USDA measures household food security and to provide an overview of 
recent food security statistics. I am accompanied by a representative 
of USDA's Food and Nutrition Service, who will also be available to 
answer questions.
    Food security is a foundation for a healthy and well-nourished 
population--and food security statistics are a measure of the strength 
of that foundation. Information on unmet food need is of particular 
interest to USDA because of its responsibility for the Federal food and 
nutrition assistance programs.
    I will begin with two or three salient food security statistics and 
then go behind those statistics to describe how households' food 
security was measured. Understanding the specific food conditions 
households reported in order to be classified as food insecure, or as 
having very low food security, may provide policy officials the best 
sense of what the food security numbers mean and how serious the 
conditions described by the statistics are. I will then conclude with a 
few further national-level statistics.
Household Food Security in the United States, 2006
    Most Americans can afford to put enough healthful food on the table 
each day. USDA estimates that slightly more than 89 percent of U.S. 
households were food secure throughout the entire year in 2006 (figure 
1). Food secure households had access at all times to enough food for 
an active, healthy life for all household members. The remaining 12.6 
million households (10.9 percent) were food insecure at some time 
during the year. 



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        Source: Calculated by USDA, Economic Research Service using 
        data from the December 2006 Current Population Survey Food 
        Security Supplement.

    About \2/3\ of food-insecure households--those with low food 
security--obtained enough food to avoid substantial disruptions in 
eating patterns and food intake, using a variety of coping strategies 
such as eating less varied diets, participating in Federal food and 
nutrition assistance programs, or obtaining emergency food from 
community food pantries or emergency kitchens. But 4.6 million 
households (4.0 percent of all U.S. households) had very low food 
security--that is, they were food insecure to the extent that eating 
patterns of one or more household members were disrupted and their food 
intake reduced, at least some time during the year, because they 
couldn't afford enough food.
Behind the Statistics: How Does USDA Measure Household Food Security?
    USDA monitors the food security of the nation's households through 
an annual food security survey conducted by the U.S. Census Bureau. The 
survey is administered each December as a supplement to the Current 
Population Survey (CPS)--the same survey that provides monthly 
employment and unemployment statistics and annual income and poverty 
statistics. A nationally representative sample of about 45,000 
households complete the food security survey each year.
    The food security of each interviewed household is assessed by a 
series of questions about behaviors, conditions, and experiences that 
are related to households' food access. The questions cover a wide 
range of severity of food access problems, from worrying that food will 
run out to not eating for a whole day. Each question asks whether the 
condition or behavior occurred at any time during the previous 12 
months and specifies a lack of money as the reason for the behavior or 
condition in question so that reduced food intake due to voluntary 
fasting or dieting does not affect the measure. The series includes 10 
questions about food conditions of the household as a whole and of 
adults in the household and, if there are children present in the 
household, an additional eight questions about their food conditions. 
The food security questions are listed in Appendix A.
    The food security status of each household is determined by the 
number of food-insecure conditions they report. Households are 
classified as food secure if they report no food-insecure conditions or 
if they report only one or two food-insecure conditions. They are 
classified as food insecure if they report three or more food-insecure 
conditions.
    Food-insecure households are further classified as having either 
low food security or very low food security. Households classified as 
having low food security have reported multiple indications of food 
access problems and reductions in the quality or variety of their 
diets, but typically have reported few, if any, indications of reduced 
food intake. Households classified as having very low food security 
have reported multiple indications of reduced food intake and disrupted 
eating patterns due to inadequate resources for food.
What Are the Food Conditions in Households with Low and Very Low Food 
        Security?
    The responses of households in the December 2006 food security 
survey clearly reflect the difference between low and very low food 
security (figure 2). Households with low food security (about \2/3\ of 
food-insecure households) reported mainly reductions in diet quality 
and variety (they could not afford to eat balanced meals) and 
difficulties and worries about food access. They typically report few 
if any indications of reductions in quantity of food intake.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        Source: Calculated by USDA, Economic Research Service using 
        data from the December 2006 Current Population Survey Food 
        Security Supplement.

    The defining characteristic of very low food security is that, at 
times during the year, the food intake of household members is reduced 
and their normal eating patterns are disrupted because the household 
lacks money and other resources for food. Households classified as 
having very low food security in the 2006 survey reported the following 
specific conditions:

  <bullet> 98 percent reported having worried that their food would run 
        out before they got money to buy more.

  <bullet> 96 percent reported that the food they bought just did not 
        last and they did not have money to get more.

  <bullet> 94 percent reported that they could not afford to eat 
        balanced meals.

  <bullet> 95 percent reported that an adult had cut the size of meals 
        or skipped meals because there was not enough money for food.

  <bullet> 85 percent reported that this had occurred in 3 or more 
        months.

  <bullet> In 95 percent, respondents reported that they had eaten less 
        than they felt they should because there was not enough money 
        for food.

  <bullet> In 69 percent, respondents reported that they had been 
        hungry but did not eat because they could not afford enough 
        food.

  <bullet> In 46 percent, respondents reported having lost weight 
        because they did not have enough money for food.

  <bullet> 33 percent reported that an adult did not eat for a whole 
        day because there was not enough money for food.

  <bullet> 24 percent reported that this had occurred in 3 or more 
        months.

    When interpreting food security statistics, it is important to keep 
in mind that households are classified as having low or very low food 
security if they experienced the condition at any time during the 
previous 12 months. The prevalence of these conditions on any given day 
is far below the corresponding annual prevalence.
How Does Food Insecurity Relate to Hunger?
    Several years ago, USDA asked the Committee on National Statistics 
(CNSTAT) of the National Academies to convene an expert panel to ensure 
that the measurement methods used to assess households' access--or lack 
of access--to adequate food were conceptually and operationally sound. 
One of the central issues the CNSTAT panel addressed was the concept 
and definition of hunger and the relationship between hunger and food 
insecurity.
    The CNSTAT panel recommended that USDA make a clear and explicit 
distinction between food insecurity and hunger. Food insecurity is a 
household-level economic and social condition of limited or uncertain 
access to adequate food. Hunger is an individual physiological 
condition that is a potential, although not inevitable, outcome of food 
insecurity. By measuring and monitoring food insecurity, USDA provides 
important information about the social and economic context in which 
hunger may occur, and contributes to the effective operation of the 
domestic nutrition assistance programs that provide millions of 
children and low-income people access to food, a healthful diet, and 
nutrition education.
Household Food Security in the United States, 2006--A Few More 
        Statistics
    Children in most food-insecure households--even in households with 
very low food security among adults--were protected from substantial 
reductions in food intake. However in about 221,000 households (0.6 
percent of households with children) one or more children were also 
subject to reduced food intake and disrupted eating patterns at some 
time during the year (figure 3). In some households with very low food 
security among children, only older children may have been subjected to 
the more severe effects of food insecurity while younger children were 
protected from those effects.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        Source: Calculated by USDA, Economic Research Service using 
        data from the December 2006 Current Population Survey Food 
        Security Supplement.

    The prevalence of food insecurity varies considerably among 
different types of households. In 2006, rates of food insecurity were 
well below the national average for households with two or more adults 
and no children (6.5 percent) and for households with one or more 
members over the age of 65 (6.0 percent). Rates of food insecurity were 
substantially higher than the national average for households with 
incomes below the poverty line (36.3 percent), households with children 
headed by single women (30.4 percent) or single men (17.0 percent), and 
for Black and Hispanic households (21.8 percent and 19.5 percent, 
respectively).
    Over the last decade, the prevalence of food insecurity has moved 
approximately in parallel with the national poverty rate, declining in 
the late 1990s, increasing following the recession of 2001, and 
declining after 2004 (figure 4). The prevalence of very low food 
security has remained essentially unchanged since 2004. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        Note: Two year rolling averages are presented for 1996-2001 to 
        smooth seasonal fluctuations.

        Source: Calculated by USDA, Economic Research Service using 
        data from the December 2006 Current Population Survey Food 
        Security Supplement.

    Mr. Chairman, this concludes my statement. I will be glad to answer 
questions the Committee may have.
                               Appendix A
Questions Used To Assess the Food Security of Households in National 
        Surveys
    1. ``We worried whether our food would run out before we got money 
        to buy more.'' Was that often, sometimes, or never true for you 
        in the last 12 months?

    2. ``The food that we bought just didn't last and we didn't have 
        money to get more.'' Was that often, sometimes, or never true 
        for you in the last 12 months?

    3. ``We couldn't afford to eat balanced meals.'' Was that often, 
        sometimes, or never true for you in the last 12 months?

    4. In the last 12 months, did you or other adults in the household 
        ever cut the size of your meals or skip meals because there 
        wasn't enough money for food? (Yes/No)

    5. (If yes to Question 4) How often did this happen--almost every 
        month, some months but not every month, or in only 1 or 2 
        months?

    6. In the last 12 months, did you ever eat less than you felt you 
        should because there wasn't enough money for food? (Yes/No)

    7. In the last 12 months, were you ever hungry, but didn't eat, 
        because there wasn't enough money for food? (Yes/No)

    8. In the last 12 months, did you lose weight because there wasn't 
        enough money for food? (Yes/No)

    9. In the last 12 months did you or other adults in your household 
        ever not eat for a whole day because there wasn't enough money 
        for food? (Yes/No)

    10. (If yes to Question 9) How often did this happen--almost every 
        month, some months but not every month, or in only 1 or 2 
        months?
(Questions 11-18 Are Asked Only if the Household Included Children Age 
        0-18)

    11. ``We relied on only a few kinds of low-cost food to feed our 
        children because we were running out of money to buy food.'' 
        Was that often, sometimes, or never true for you in the last 12 
        months?

    12. ``We couldn't feed our children a balanced meal, because we 
        couldn't afford that.'' Was that often, sometimes, or never 
        true for you in the last 12 months?

    13. ``The children were not eating enough because we just couldn't 
        afford enough food.'' Was that often, sometimes, or never true 
        for you in the last 12 months?

    14. In the last 12 months, did you ever cut the size of any of the 
        children's meals because there wasn't enough money for food? 
        (Yes/No)

    15. In the last 12 months, were the children ever hungry but you 
        just couldn't afford more food? (Yes/No)

    16. In the last 12 months, did any of the children ever skip a meal 
        because there wasn't enough money for food? (Yes/No)

    7. (If yes to Question 16) How often did this happen--almost every 
        month, some months but not every month, or in only 1 or 2 
        months?

    18. In the last 12 months did any of the children ever not eat for 
        a whole day because there wasn't enough money for food? (Yes/
        No)

    Household food security status is determined by the number of food-
insecure conditions reported. (Food-insecure conditions are indicated 
by responses of ``often'' or ``sometimes'' to questions 1-3 and 11-13, 
``almost every month'' or ``some months but not every month'' to 
questions 5, 10, and 17, and ``yes'' to the other questions.)
    Households are classified as food secure if they report no food-
insecure conditions or if they report only one or two food-insecure 
conditions. They are classified as food insecure if they report three 
or more food-insecure conditions.
    Food insecure households are further classified as having low or 
very low food security by the following criteria:

  <bullet> For households with no child present, 3-5 food-insecure 
        conditions indicates low food security and 6-10 indicates very 
        low food security.

  <bullet> For households with one or more children, 3-7 food-insecure 
        conditions indicates low food security and 8-18 indicates very 
        low food security. Five or more food-insecure conditions among 
        the children (that is, in response to questions 11-18) 
        indicates very low food security among children.
                              Attachments

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    The Chairman. Thank you very much, Dr. Nord.
    Next I would like to call on Dr. Brown.

  STATEMENT OF DR. J. LARRY BROWN, VISITING SCHOLAR, HARVARD 
              UNIVERSITY SCHOOL OF PUBLIC HEALTH,
BOSTON, MA; ACCOMPANIED BY DONALD S. SHEPARD, Ph.D., PROFESSOR 
 AND ECONOMIST, SCHNEIDER INSTITUTES FOR HEALTH POLICY, HELLER 
            SCHOOL, BRANDEIS UNIVERSITY, WALTHAM, MA

    Dr. Brown. Thank you, Mr. Chairman, Members of the 
Committee. The United States is actually very unique among 
industrial democracies because we let so many of our people go 
hungry; year after year. You have heard, and if you have seen 
the reports from USDA and Census Bureau, say, over the last 5 
or 6 years, it ranges from 33 to 38 million people living in 
households that don't have enough to eat. So what we once 
termed a hunger epidemic back in the 1980s has now actually 
just become a real part of our national landscape. And we are 
letting this problem remain virtually the same from year to 
year, a little bit of fluctuation, but basically the same.
    And before I turn to the results of our study on the cost 
burden of hunger, I will at least mention some of the things 
that we know about the health and cognitive effects of hunger, 
what it does to the minds and bodies of children.
    Two or 3 decades ago I used to teach my public health and 
medical students that while hunger impacts one's health status, 
it seldom has had an effect on the brain, at least 
morphologically. We now know that this is not true. Science now 
knows that there is no safe level of hunger. When a child is 
forced to go without enough to eat, his body or her body 
suffers and the brain function is impaired. And the same is 
true for adults, particularly the vulnerable elderly. The body 
and brain require sufficient energy just as our cars do in 
order to run. A child sitting in the classroom without 
breakfast does not have the cognitive capacity to take part in 
the educational process. Her body, in other words, is there in 
the classroom but her mind is elsewhere. She is not fueled to 
learn. And when the body doesn't have enough nutrition, even on 
a short-term basis, it goes into triage. Just like triage on 
the battlefield, the body must decide how to allocate 
insufficient nutritional resources. And the first priority is 
to maintain critical organ function. The next priority of 
course if there is enough dietary energy is for normal height 
and weight gain, to maintain health.
    And the final priority is for brain function. So that child 
in the classroom may be present in body, but she came through 
the schoolhouse door with one arm tied behind her back not 
because she lacks innate ability, but simply because she 
doesn't have the dietary wherewithal to learn.
    So in short, Members, we now know in science that hunger 
produces startling effects on the mind and body, things we just 
did not know even 2 decades ago.
    And while this is true for both adults and children, most 
of the research is focused on the young because we can more 
easily track their growth and their educational development.
    Children without enough to eat, science now shows: get sick 
more frequently, particularly in terms of preventable outcomes; 
they have more difficulty overcoming illnesses once they occur; 
they miss school more often due to illnesses; they experience 
more behavioral disorders, aggressiveness and as well as sullen 
and withdrawn behavior; and they do less well in terms of 
grades and on standardized test scores.
    So it is in this context of these outcomes that the Sodexho 
Foundation commissioned me along with three other scholars to 
look at the costs. In other words, the question was, do we pay 
more in terms of illness and lost productivity in educational 
outcomes than if there were no hunger in America?
    So I am joined here today by Dr. Donald Shepard to my left, 
an Economist from Brandeis, who has done similar cost burden 
analyses including that of dengue fever. Sodexho is known for 
its corporate interests, as you may know, and charitable 
responses to hunger and to inform policy responses; and they 
funded our interdisciplinary team. Now the bottom line is that 
when people go hungry, it costs the nation in a variety of ways 
and the first of these is charity.
    There are 300 food banks across the nation. There are 
50,000 soup kitchens and food pantries. And these facilities 
have to rent or purchase offices and warehouses, freezers, 
trucks and related materials. They also have literally 
thousands upon thousands of volunteers for hours or days a week 
helping to feed the hungry. And each of these activities, 
including volunteers, has a cost. We figured that out. The 
enormous charitable enterprise in the nation today as of last 
year came to $14.5 billion each year.
    I turn next to the cost of excess illness, that is illness 
that is associated with hunger and food insecurity over and 
above the typical presence of those outcomes in the general 
population. We did this both for psychosocial function, that is 
mental health, as well as physical health. And you might be 
interested briefly in how we did it. We know that food-deprived 
groups have higher rates of certain health outcomes. Iron 
deficiency occurs at a rate that is 1.66 percent times more 
likely. Activity limiting impairments, three times more likely, 
headaches twice as high, nutrient deficiencies three to four 
times as high. And in terms of mental health outcomes, 
particularly in children, depression is 3\1/2\ times higher 
than among non-hungry children. The need for special education 
is twice as high and so on. I won't go further.
    But Dr. Shepard and I will be happy to answer questions 
about the calculation of these costs. What is worth noting now 
is the health-related cost of hunger comes to nearly $67 
billion annually. The final cost area is the limited education 
and lower workforce productivity that is associated with not 
having enough to eat.
    According to a number of studies in the field, children 
from food insecure homes are more likely than their non-hungry 
peers to do less well on tests of mental ability and overall 
school performance. They miss school 50 percent more, they get 
suspended about twice as often, they have to repeat more 
grades, they are less likely to complete high school. And as a 
result, children who are so affected face an increased 
likelihood of unemployment, limited employment, lower job 
performance, and all of this impacts workforce productivity.
    The cost of this workforce productivity loss comes to about 
$9.2 billion annually. So when we add up the costs in these 
three areas that I have cited, we can say that we pay a 
staggering bill for hunger, more than $90 billion a year. That 
is enough to get our attention, although I would like to stress 
that the actual cost is no doubt higher due to the conservative 
research techniques that we employed and the fact that we had 
insufficient data for certain outcomes. This bill arguably 
tacks onto the American public, it means that a typical 
household in our country pays about $800 a year because hunger 
exists.
    This bill is paid in terms of charitable contributions and 
related tax deductions as well as lowered workforce 
productivity and competitiveness in the international market 
system.
    By contrast, in closing, this $90 billion bill, it recently 
was estimated that we could virtually end hunger in America if 
we increased spending for existing programs, food stamps, child 
nutrition, elderly feeding by about $12 billion a year over 
current spending. The very recent jump in food and fuel cost 
may make this calculation somewhat higher. Former nutrition 
advisor to President Nixon and my former college President, Dr. 
Jean Mayer once noted, ``of all the dumb ways to save money, 
not feeding children is the dumbest.''
    While I prefer to speak a slightly different language, 
perhaps less remarkable for its clarity, the economics are 
clear, our nation pays far more to let hunger exist than it 
would cost us to eliminate it. Thank you.
    [The prepared statements of Dr. Brown and Dr. Shepard 
follow:]

  Prepared Statement of Dr. J. Larry Brown, Visiting Scholar, Harvard 
             University School of Public Health, Boston, MA
    Mr. Chairman, Members of the Committee:

    I thank you for your invitation to appear today as you consider the 
health and economic costs of hunger in America. Although I have 
appeared before this and other Committees on many occasions over the 
years, I must begin with the bottom line: The United States is quite 
unique among industrial democracies because we let so many of our 
people go hungry, and we seem to be doing precious little to close this 
gap. Year after year the Department reports that about 35 million 
Americans live in households that do not have enough to eat. What was 
once termed a ``hunger epidemic'' in our nation has now become a 
continuing fact of life. We are letting this problem remain pretty much 
the same from year to year. Clearly we can do better, and I applaud you 
for holding this hearing to exercise the leadership to make a 
difference.
    Before I turn to the results of our study of the cost burden of 
hunger, I will begin by reviewing what science knows about the health 
and cognitive effects of hunger--what it does to the minds and bodies 
of both children and adults. Some of this information may be new to 
you, even to the two Members who also are physicians by training.
    Two or 3 decades ago I used to teach my public health and medical 
students that while hunger impacts one's health status, it seldom had 
an effect on the brain. We now know that this is not true. Science now 
knows that there is no ``safe'' level of hunger: when a child is forced 
to go without enough to eat her body suffers and her brain function is 
impaired. The same is true for adults, particularly the vulnerable 
elderly. This is because the body and the brain require sufficient food 
energy to function adequately. When it is not there, even temporarily, 
the body and mind cannot function properly. Just as your car cannot run 
without the proper fuel, so too is the mind impaired when it goes 
without its own fuel.
    A child sitting in the classroom without a breakfast does not have 
the cognitive capacity to take part in the educational process. Her 
body is in the classroom but her mind is not fueled to learn. This is 
because when the body does not have enough nourishment, even on a 
short-term basis, it goes into triage. Just like triage on the 
battlefield, the body must decide how to allocate its insufficient 
resources. Its first priority is to use whatever energy there is to 
maintain critical organ function. Its next priority, if there is enough 
nutrient energy, is to maintain health. Its final priority is for brain 
function. As my colleague Carl Sagan bluntly put it when we discussed 
these new research findings, ``better dumb than dead.'' That child in 
the class may be present in body but she came through the schoolhouse 
door too impaired to learn--not because she is dumb but because she 
suffers cognitive impairment due to lack of nutrition. In short, 
science now knows that hunger, not just in its absolute state but even 
in the form of chronically ``mild'' under-nutrition, produces startling 
effects in both the mind and body. While true for both adults and 
children, most of the research has focused on the young because we can 
more easily track their growth and educational patterns. Children 
without enough to eat:

  <bullet> Get sick more frequently, particularly in terms of 
        preventable outcomes such headaches, stomachaches and colds,

  <bullet> They have more difficulty overcoming illnesses once they 
        occur,

  <bullet> They miss school more often due to these illnesses,

  <bullet> They have more behavioral disorders, such as aggressiveness 
        and classroom disruption, as well as sullen and withdrawn 
        behavior, and

  <bullet> They do less well in terms of their grades and do more 
        poorly on standardized test scores than do similar children who 
        get enough to eat.

    It is in the context of these poorer health, behavioral and mental 
outcomes that the Sodexho Foundation commissioned me, along with three 
other scholars, to assess their cost to the nation. In other words, how 
much more money do we pay in terms of illness, poor educational 
outcomes and lost productivity than we would if no one went hungry in 
America. I am joined today by one of my colleagues in this research, 
Dr. Don Shepard, an economist from Brandeis University, who has done 
similar cost burden analyses, recently one commissioned by the United 
Nations regarding the cost of dengue fever. Sodexho, known for its 
corporate interest not only charitable responses to hunger but to 
informed policy responses to help end hunger altogether, funded our 
interdisciplinary team from three major universities. Parenthetically, 
I should mention that none of us receives a salary from Sodexho, and 
the Foundation played no role whatsoever in our research or its 
outcomes.
    When people go hungry it costs the nation in a variety of ways, 
some of which are not easily measurable. We dismissed cost areas for 
which calculations were too difficult, and focused instead on four key 
cost arenas that are more easily measurable, that is, where the 
scientific literature is sufficient to develop cost burdens that are 
both reasonable and conservative. The first of these is charity. It is 
said that ``there is no free lunch.'' Somebody, somewhere, pays. 
Charity operates the same way, and hunger charities exist throughout 
the country, in each of your districts and in virtually every community 
in the nation. More than 300 food banks exist, covering every state and 
averaging six to a state (although they are not that equally 
distributed). These food banks provide nutritional and other 
commodities to more than 50,000 soup kitchens and food pantries. These 
food banks and local charities have to rent or purchase offices, 
warehouses, freezers, trucks and related materials. They have to have 
full-time, paid staff, and their work is supplemented by literally 
thousands upon thousands of volunteers who often spend from several 
hours to a day or 2 a week helping to feed the hungry. Each of these 
activities, even among volunteers, has a cost. We figured out what it 
is. This enormous charitable enterprise comes to more than $14.5 
billion each year.
    We next turn to the excess cost of illness, that is, illness that 
is associated with hunger over and above the typical levels that occur 
in the population(s). We did this for both mental health services and 
for medical and other forms of health care. You might be interested in 
how we did this. As indicated earlier, we know that food-deprived 
groups have higher rates of ill health: iron deficiency occurs at a 
rate that is 1.66 times more likely; activity-limiting health 
impairments are nearly three times as high; headaches nearly twice as 
high; and nutrient deficiencies from three to four times normal levels. 
In terms of mental health outcomes, particularly in children, 
depression is 3.5 times higher than among non-hungry children; the need 
for special education twice as high; and general psychosocial 
dysfunction is seven times as high. As you're probably beginning to 
see, it costs far less to feed children than it is to let them go 
hungry and par a higher price after-the-fact. I will go no further now 
in terms of how we attributed actual costs of these adverse outcomes, 
but Dr. Shepard and I can take questions, or you can refer to the 
detailed methodology in our research report. What is worth noting now 
is that the health-related costs of hunger come to nearly $67 billion 
annually. And please bear in mind that the actual costs certainly are 
higher, quite a bit higher, because of our conservative methodology. 
This is because for some outcomes, say Attention Deficit Hyperactivity 
Disorder (ADHD), the research literature is insufficient to develop 
likelihood ratios for excess outcomes. For yet other outcomes, we had 
adequate data to compute direct costs but not for indirect ones. It is 
the responsibility of researchers to be careful--conservative--and it 
is for this reason that we know our estimate of $67 billion a year does 
not capture the full cost in this arena.
    The final cost arena is the limited education and lowered workforce 
productivity that is associated with having too little nourishment. 
According to a number of studies in this field, children from food 
insecure homes are more likely than their non-hungry peers to do less 
well on tests of mental ability and overall school performance. They 
miss school 50% more; they get suspended about twice as often; and they 
have to repeat more grades. They also are less likely to complete high 
school. As a result, children so affected face greater likelihood of 
unemployment or limited employment; poor judgment and lowered job 
performance; and, as a result, lowered workforce productivity. The cost 
of this productivity loss comes to $9.2 billion annually.
    When we add the costs of each of these arenas (more than $14 
billion for charity; nearly $67 billion for illness; and almost $10 
billion in lowered education and productivity) we pay a rather 
staggering bill for hunger--more than $90 billion each year. This is 
enough to get our attention, although I stress again that the actual 
cost is clearly higher than this, due to our utilization of 
conservative research techniques and lack of sufficient data for some 
outcomes known to be associated with hunger.
    While this bill, sort of an additional tax on the American public, 
is not evenly distributed across the population, it means that a 
typical household in our country pays $500 a year. While this bill 
often is not direct, it shows up in terms of higher taxes to cover the 
costs of outcomes that the victims of hunger suffer. It also is paid in 
terms of charitable contributions and related tax deductions, as well 
as lowered workforce productivity and competitiveness in the 
international market system.
    By contrast to this $90 billion annual cost, it recently was 
estimated that we could virtually end hunger in America if we increased 
spending for existing nutrition programs (food stamps, school meals, 
summer feeding and elderly feeding) by about $12 billion a year over 
current spending. (The very recent jump in food and fuel costs may now 
make this calculation somewhat higher).
    Former nutrition advisor to President Nixon, Dr. Jean Mayer, once 
noted that ``of all the dumb ways to save money, not feeding children 
is the dumbest.'' While I prefer to speak a slightly different language 
than his remarkable clarity, our economics are clear: our nation pays 
far more to let hunger exist than it would cost us to eliminate it.
    Thank you.

    Copies of the research analysis, The Economic Cost of Domestic 
Hunger: Estimated Annual Burden to the United States, is available to 
download by going to www.sodexofoundation.com. For further information 
from the researchers, e-mail: [Redacted]; [Redacted]; [Redacted]; and 
[Redacted]. This research initiative was sponsored by Sodexho 
Foundation, which has been working to eliminate the root causes of 
hunger since 1996. Its work also includes a broad menu of child feeding 
programs (summer and school year), and disaster response initiatives 
such as Hurricane Katrina and the Gulf Coast.
                                 ______
                                 
     Prepared Statement of Donald S. Shepard, Ph.D., Professor and 
   Economist, Schneider Institutes for Health Policy, Heller School, 
                                Brandeis
                        University, Waltham, MA
    Chairman Baca, Ranking Minority Member Boustany, and other Members 
of the Committee. My name is Donald S. Shepard. I am a professor at the 
Heller School, Brandeis University, in Waltham, MA, and lead the Cost 
and Value Group in the Schneider Institutes for Health Policy. I am 
honored to have the opportunity to testify today to the Subcommittee on 
Department Operations, Oversight, Dairy, Nutrition, and Forestry. My 
testimony is based largely on the study I co-authored entitled, ``The 
economic cost of domestic hunger: Estimated annual burden to the United 
States.'' The authors, in their order or listing, are Dr. J. Larry 
Brown, Harvard School of Public Health, myself, Dr. Timothy Martin, 
also of Brandeis University, and Dr. John Orwat, Loyola University. My 
co-author, Dr. Brown has spoken about this study as well.
    The scholarly literature is replete with studies that assess the 
cost to society of adverse outcomes associated with social practices 
such as smoking, alcohol abuse and obesity. The analysis of a cost 
burden, the compilation of the direct and indirect economic costs of a 
particular problem or policy, often provides helpful information to the 
public and policy makers about the financial ramifications of a problem 
and the potential savings that could result from reducing or 
eradicating it. As Dorothy Rice, a pioneer in such studies, has noted, 
they have been widely performed and proved useful to inform resource 
allocation across such wide ranging areas as biomedical research, 
public health, and injury prevention (Rice, 2000).
    The cost of a particular societal burden includes all known private 
and public sector spending, counting both direct and indirect costs. 
Direct costs are those expenditures incurred as a result of the medical 
treatment of some illness or problem, while indirect costs are the non-
medical expenditures incurred as a result of that illness, such as 
missed days of work. The annual cost of health care associated with 
alcohol abuse, for example, has been calculated at $22.5 billion, but 
when indirect costs, such as lost productivity are factored in, the 
total economic burden to the nation has been reported by various 
scholars to run to nearly $200 billion annually. The costs of problems 
like alcoholism frequently are as hidden as they are surprising, since 
costs are not only borne by the user but their families and society at 
large. The children of alcoholics are sick more often, are admitted to 
the hospital 62% more often than other children, and remain in the 
hospital 29% longer (Rice, 1999). Alcohol abuse significantly elevates 
the likelihood of traffic accidents, particularly among teenagers, but 
also among all ages. Alcohol abuse also is linked to increased 
homicides and other violent crimes, as well as increased drowning and 
suicides (Rice, 1999).
    In recent years cost burden analyses have put the annual cost of 
alcohol abuse at $185 billion (Harwood, 2000), smoking at $138 billion 
(Rice, 1999), drug abuse at $161 billion (Office of National Drug 
Control Policy, 2003), obesity at $79 billion (Finkeklstein, 2003), and 
poverty at $500 billion (Holzer, 2007). The high societal costs of such 
problems strongly suggest greater focus on reduction or prevention. So 
commonly accepted is the premise of prevention that it is encoded in 
various state and Federal laws. Most states require motorcyclists to 
wear helmets because of the frequency of serious brain damage 
associated with not wearing a helmet. Similarly, childhood vaccinations 
are generally required as a condition for school entry, and 
transportation workers may not use certain drugs and must accept random 
screening on request to confirm their adherence.
    It is notable that such decisions do not extend to all possible 
adverse outcomes. Society does not, for example, require people to eat 
only certain foods to avoid the costs to the nation of obesity. Neither 
is smoking or alcohol use banned altogether, although their public use 
is now greatly regulated to protect the public good.
The History and Prevalence of Hunger in America
    The extent of domestic hunger has been fairly well understood since 
at least the late 1960s, (Citizens' Board of Inquiry into Hunger and 
Malnutrition, 1967). While professional and government entities were 
unable to estimate precisely how many individuals were impacted, they 
placed the number of chronically hungry Americans in the millions. 
Revelations at the time spurred bipartisan Congressional hearings, 
resulting the expansion or creation of programs that include Food 
Stamps, School Breakfast, Elderly Feeding and WIC programs (Brown, 
1970).
    In 1985, a prominent group of medical researchers affiliated with 
Harvard University announced the results of its research and field 
investigations in half the states of the nation (Physician Task Force 
on Hunger in America, 1985). Its members had traveled to the states to 
investigate hunger first hand; yet unlike their predecessors, they had 
the scholarly training to estimate the size of the problem the nation 
faced, reporting that the number of Americans afflicted by hunger was 
at least 20 million. Their report led to significant national news 
coverage and, as in 1968, Congress took further action to ameliorate 
the problem.
    Although the estimate of 20 million people going hungry was 
criticized in some quarters, other sources soon weighed in, with one 
national pollster placing the estimate well above 30 million (Bregglio, 
1992), a figure later corroborated by the university-based Center on 
Hunger and Poverty in 1992 (Communication to Congressman Tony Hall from 
J. Larry Brown, 1992), which had been consulted by Congressional 
leaders as to the true extent of domestic hunger. In 1995, the Federal 
Government implemented a standard measure to evaluate the extent of 
hunger annually. Over the past ten years, with relatively minor 
variations, this standard has indicated that about 35 million Americans 
live in households with insufficient food. Like the Federal poverty 
rate, which varies annually with changes in job opportunities, wages 
and the overall economy, the extent of hunger rises and falls each year 
as well and for similar reasons--but the variation is slight. This 
Federal data set consistently indicates that over 12% of the nation's 
people lack sufficient nutrition.
    The extant standard for tracking hunger and food insecurity is 
known as the Federal Food Security Module, and it is conducted by the 
Department of Agriculture and the Bureau of the Census (Bickel et al., 
2000). In its annual census tracking, the Bureau asks a special set of 
eighteen questions developed by the Department of Agriculture that is 
applied to a broad national sample of households to determine the 
adequacy of their diets: do they sometimes not have enough food for 
their families, do they sometimes have to skip meals because of 
insufficient income, do they ever have to put their children to bed 
hungry. The researchers also ask questions about when such occurrences 
happened and how often over the past year, since the number of positive 
responses to such outcomes must reflect a repetitive or chronic problem 
before the household actually is counted as vulnerable.
    Unlike the earlier hunger estimates, the Federal measure reflects a 
refined definition of the problem. The governmental report defines 
hunger as a ``painful sensation'' in the stomach, and the measure of it 
reflects a high degree of food deprivation or ``insecurity'' before a 
household actually is considered to experience hunger. Some 
nutritionists and medical experts consider this standard to be too 
high. Since ``pain'' is only one of the possible sensations from 
hunger, many victims of hunger do not actually feel pain as such. Thus, 
people can be chronically hungry by any common understanding of the 
term, yet be missed by the Federal definition because they do not 
experience ``a painful sensation.''
    Alongside the category of ``hunger,'' the Federal measure also 
includes a new and more encompassing category of nutritional 
deprivation known as ``food insecure.'' Households that are not 
determined to be hungry, as such, may be food insecure if they run out 
of food or do not know where the next meal is coming from, or if 
parents have to cut back on the portions of food served, cut down on 
the types of food categories available to the family, or have to rely 
on soup kitchens or food pantries to feed their family. While many 
consider this two-tiered measure--hunger and food insecurity--to be 
useful in differentiating degrees of household food deprivation, some 
experts consider the distinction to be tenuous. They note that since 
hunger is more than a pain, and includes inadequate food resources to 
nourish individuals and families, then food insecurity is hardly 
different from hunger, if at all.
    Federal Food Security Module outcomes for the years 2000-2006 are 
reported in Table 1.

          Table 1. Annual Levels of Hunger and Food Insecurity
------------------------------------------------------------------------
                  Number of    Percent of     Number of     Percent of
      Year       Households    Households    Individuals    Individuals
------------------------------------------------------------------------
          2000   11.1                  10.5  33.2                   12.1
                  million                     million
          2001   11.5                  10.7  33.6                   12.2
                  million                     million
          2002   12.1                  11.1  34.9                   12.5
                  million                     million
          2003   12.6                  11.2  36.3                   12.7
                  million                     million
          2004   13.5                  11.9  38.2                   13.2
                  million                     million
          2005   12.6                  11.0  35.1                   12.1
                  million                     million
------------------------------------------------------------------------
          2006   12.6                  10.9  35.5                   12.1
                  million                     million
------------------------------------------------------------------------
Source: Department of Agriculture, Household Food Security in the United
  States, 2006, Economic Research Service (ERR-49), November 2007.

    To analyze the cost burden of domestic hunger, we treat the extent 
of food deprivation in the nation as being the more encompassing number 
combining both hunger and food insecurity. Two factors support this 
treatment of the data. One, mentioned above, is that even households 
that are considered to be food insecure actually experience hunger 
(people don't eat enough to satisfy their needs, and are forced to cut 
back in terms of satisfying their nutritional requirements). The other 
factor supporting this decision is the scholarship in the field of 
hunger and food security. For more than a decade now, scores of studies 
and analyses have shown that even the most elementary forms of food 
insecurity have detrimental effects on its victims. See, for example, 
Murphy et al. (1998); Sahyoun and Sasiotis (2000), and Kleinman et al. 
(1998). People who go without enough to eat are sick more often and 
miss work more frequently. Children who live in food insecure 
households (not necessarily categorized as hungry) are sick more 
frequently, miss school more often, and do more poorly in school. The 
research shows that food insecure children are more susceptible to 
cognitive impairment (mental dysfunction), more likely to engage in 
anti-social behaviors, and more in need of both medical and mental 
health interventions (Center on Hunger and Poverty, 2002). In short, 
there are significant ``cost burdens'' when people are hungry or food 
insecure. Hence, we treat the burden of hunger and food insecurity as a 
unified problem or cost center.
Approach
    Because the cost burden of a problem such as hunger includes all 
public and private expenditures, both direct and indirect, we reviewed 
scientific literature to identify odds ratios for various adverse 
outcomes known to be associated with hunger. These include the 
following categories: (a) charitable efforts to feed the hungry; (b) 
mental health and medical care to address problems such as anxiety and 
depression, illnesses, nutrient deficiencies, physician visits and 
hospitalizations; and (c) lowered economic productivity associated with 
missed days of school, school suspensions, repeating a grade, overall 
educational success and dropping out of school. We then reviewed 
economic literature and, where relevant, expenditure data to establish 
attributable costs for each of these outcomes.
    Due to limited data availability, it was generally assumed that the 
odds ratio for children and adults were the same. This was the most 
plausible assumption that could be made in the absence of complete 
data.
The Cost Burden of Charity
    Charity is the practice of short-term relief when structural 
factors (economic, policy and programmatic) are insufficient. A home 
burns down or a job is lost and the family may be consoled with lodging 
or other forms of short-term care until more lasting solutions come 
into play. With respect to domestic hunger the charitable community has 
played a significant role since the early 1980s (Physician Task Force 
on Hunger in America, 1985), developing both immediate and long-term 
strategies to address the problem of households without sufficient 
nutrition.
    With about 35 million Americans consistently living in households 
that struggle each year to get enough to eat, (USDA, Economic Research 
Service, ERR-47, 2007) the charitable response has shifted from 
individual in nature to largely an institutional one. Tens of thousands 
of ``emergency'' feeding programs now dot the landscape of the nation, 
so many in fact that if they were evenly distributed, about one 
thousand would exist in each of the fifty states. (Cohen, 2006).
    The largest domestic hunger relief organization is America's Second 
Harvest, an umbrella organization that represents a network of more 
than 200 food banks and food rescue organizations across the country 
that serve the smaller emergency programs mentioned above. Located in 
every state, these entities collect canned, boxed and sometimes fresh 
foods from industry and other sources, and then distribute it to a 
variety of local programs to feed the hungry with actual meals or 
periodic bags of groceries. Another 50 or so food banks exist outside 
the Second Harvest system meaning that the nation has an average of 
five food banks for each state (though not actually so distributed).
    These 250-plus food banks exist to provide food pantries that 
typically reside in church basements and social service agencies. These 
facilities usually bag the food products to distribute weekly to 
families depending on household size. The banks also service soup 
kitchens, establishments where individuals and families can come for a 
sandwich or even a hot meal. America's Second Harvest reports that its 
food banks alone service more than 40,000 food pantries and soup 
kitchens across the nation. In 2005, these Second Harvest programs fed 
more than 24 million people (Cohen, 2006). When non-Second Harvest food 
banks and other programs are factored in, the number of people fed 
through charitable efforts in the nation is substantially higher.
    It is the nature of charity that it typically is a donation: a 
hungry household is given food. But the food itself is not free since, 
somewhere along the line, it was paid for. Even the act of giving the 
food was not free but relied on volunteer time and institutional 
overhead, both of which have calculable costs. In this sense, America's 
huge charitable enterprise, developed largely over the past 25 years, 
is not free. In fact, its price tag, its economic investment to feed 
the hungry, is more than $14 billion each year (see Table 2).

    Table 2. Annual Cost Burden of Charitable Efforts To Feed Hungry
                                Americans
------------------------------------------------------------------------
                                                          Estimated Cost
                  Charitable Activities                        2005
------------------------------------------------------------------------
Food Banks: products, operations and depreciation           $3.8 billion
Local Feeding Programs: food pantries and soup kitchens     $7.5 billion
Volunteer Support: volunteer hours and expenses (1. and     $1.1 billion
 2.)
Other National Feeding Programs (non-food bank related)     $0.7 billion
Unaffiliated Local Programs                                 $1.4 billion
                                                         ---------------
  Total costs                                              $14.5 billion
------------------------------------------------------------------------

Illness and Psychosocial Dysfunction
    We evaluated and summarize the economic costs of poorer health, 
illness, increased utilization of psychological services, and other 
psychosocial outcomes that are shown by research to be associated with 
food insecurity. To estimate the cost of adverse health and mental 
health outcomes, we first reviewed the scientific literature to 
identify studies that show a link between food insecurity and adverse 
health outcomes. Studies were chosen that calculated multivariate risk 
ratios or odds ratios of these adverse outcomes to increase our 
confidence that the associations were found after statistically 
controlling for other explanatory factors. For some outcomes associated 
with insufficient food, such as attention deficit hyperactivity 
disorder (ADHD), we concluded that the existing likelihood ratio for 
excess outcomes was insufficient to rely on. For yet other outcomes 
such as iron deficiency, hospitalizations, and excess costs of fair and 
poor health status, we were able to compute direct costs but not 
indirect costs because available data did not provide a basis for 
estimating indirect costs.
    Medical conditions identified to have higher rates of adverse 
conditions among those who are food insecure include iron deficiency 
anemia (1.66 times more likely), headaches (1.92), stomach aches 
(2.16), frequency of colds (1.54), activity-limiting health impairments 
(2.95), specific nutrient deficiencies (2.85 to 4.39), more 
hospitalizations and longer in-patient stays (1.3), and poorer overall 
health status (2.9) (Table X1). Mental health conditions with a higher 
rated of adverse conditions among the food insecure include anxiety and 
irritability (1.95 times as likely), depression (3.50), withdrawn 
behavior (1.74), psychosocial dysfunction (7.0), suicidal thoughts and 
behaviors (5.00), and need for mental health services (1.93).
    The cost of illness was then calculated for these conditions by 
searching the cost of illness literature and calculating the fraction 
of the cost attributable to food insecurity, as described in the 
methods section. The total cost from a societal perspective for mental 
health services and ill health, assuming these outcomes are 
independent, comes to $66.8 billion annually, in 2005 dollars (Table 
X3). The state of the literature allowed us to calculate both indirect 
and direct costs for migraine headaches ($1.7B), colds ($0.4B), iron 
deficiency ($0.2B), depression ($15.6B), anxiety ($9.2B), and suicide 
($6.4B). However, we were only able to calculate direct costs for upper 
GI disorders ($2.5B), hospitalizations other than for the conditions 
listed here ($7.1B), and the excess cost of fair or poor health status 
($23.7B) as reliable estimates for indirect costs were not available.
Education and Lowered Productivity
    This impact was estimated through a two step process, as existing 
literature did not permit the one-step estimation available for illness 
and psychosocial dysfunction. According to a number of recent studies, 
children from food insecure households are more likely than their non-
food insecure peers to experience higher rates of various forms of 
educational trauma: Missed days of school were 1.6 times the risk, and 
repeating a grade was 1.44 times the risk compared to a child without 
food insecurity. These factors, in turn, were linked to a higher risk 
of dropping out of school. This translated to the economic burden from 
dropping out of school of lower lifetime earnings of $9.2 billion.
Summary of Burden
    When summed for 2005, these burdens total $90.4 billion (Table 3). 
The results can further be broken down by state based on the prevalence 
of food insecurity in each state in 2005 (Figure 1).

         Table 3. Minimum Total Cost Burden of Hunger in America
------------------------------------------------------------------------
                                                            2005 Direct
                 Cost Burden by Outcome                    and Indirect
                                                               Costs
------------------------------------------------------------------------
Charity                                                    $14.4 billion
Illness and psychosocial dysfunction                               $66.8
Less education and lowered productivity                             $9.2
                                                         ---------------
  Total costs                                              $90.4 billion
------------------------------------------------------------------------

Figure 1.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Implications
    This country's nutrition programs can be seen as a glass half full. 
Were the Supplemental Nutrition Assistance Program (SNAP, formerly 
called Food Stamps) and other government programs not in existence, the 
burden would have been even greater than $90 billion. That is the part 
of the glass that is full. Had those programs had the structure and 
funding that the problem requires, however, there would have been 
virtually no cost of domestic hunger. My colleagues and I would not 
have estimated a $90 billion problem. That is the half empty part of 
the glass.
    Using round numbers, I would like to estimate the expansion in 2005 
that might have funded the empty part of the glass. I will assume:

  --The program cost $35 billion;

  --Food stamps covered \2/3\ of those eligible; and

  --Benefits, on average met about \3/4\ of the needs for those who 
        received them (higher food prices today might lower this 
        share).

    Putting these two shares together, the program in 2005 covered 
about half the food needs of those eligible (i.e., \2/3\ of \3/4\). 
Thus, the spending of $35 billion represents about half the food needs 
of eligible hungry Americans. There is another half, another $35 
billion cost to serve eligible Americans, that was not being met. In 
other words, additional funding of $35 billion would have addressed 
substantial parts of the gap.
    We can compare the economic burden of $80 billion against the 
additional investment of $35 billion and see a return of about $2.28 
for every increased dollar invested in terms additional support for 
reducing hunger.
    I am pleased that the farm bill passed by this Congress will take 
useful steps towards expanding benefits under SNAP and help lower the 
empty part somewhat. Further investments in funding, outreach, and 
expanded benefits will ensure that the empty part of this glass is 
completely addressed and that hunger in America can be largely 
eliminated. Thank you very much.
                              Attatchment

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you very much, Dr. Brown.
    Next we have Dr. Diana Cutts.

STATEMENT OF DIANA B. CUTTS, M.D., FACULTY PHYSICIAN, HENNEPIN 
               COUNTRY MEDICAL CENTER; ASSISTANT
  PROFESSOR OF PEDIATRICS, UNIVERSITY OF MINNESOTA; PRINCIPAL 
               INVESTIGATOR, CHILDREN'S SENTINEL
             NUTRITION ASSESSMENT PROGRAM (C-SNAP),
                        MINNEAPOLIS, MN

    Dr. Cutts. Chairman Baca and distinguished Committee 
Members. My name is Diana Cutts and I am truly honored to be 
here today.
    At Hennepin County Medical Center in Minneapolis, 
Minnesota, I practice pediatrics, teach bright young medical 
students and residents and direct research with Children's 
Sentinel Nutrition Assessment Program, C-SNAP, a national 
multi-site program which monitors the well-being of very young 
children.
    I have relied on my distinguished co-panelists to dazzle 
you with information so I can instead share with you the 
experience of taking care of kids. So please join me in clinic 
this morning. I hope you have had a good breakfast and have 
lots of energy. Place your stethoscopes around your necks, but 
don't bother with white coats. They only scare the kids.
    Julia is a 13 month old here after a 3 day hospitalization 
for dehydration due to a virus. Looking at her vital signs we 
see she is slowly regaining her weight. She screams bloody 
murder the minute she sees us. But after we talk to her parents 
and do our best possible exam, we decide she is on the mend. 
Mom is told to bring her back in a few months and the clinic 
quiets as she leaves.
    Next up, Terrence, a 4 year old here to complete forms for 
Head Start enrollment. A quiet little guy, he doesn't pass the 
developmental screening. His mother, 5 months pregnant, accepts 
our referral to the public schools for more extensive 
evaluation. We are also concerned about mom's affect, she seems 
depressed. We talk about maternal depression and refer mom to 
mental health resources. Before they leave, one of the C-SNAP 
interviewers approaches me. ``Dr. Cutts'' she says ``I hope it 
was okay that I gave that family two bags of groceries.''
    You see, we offer a bag of groceries to families who are 
surveyed for our research. It turns out you have a background 
in political science, and you ask me about our findings. So I 
explained that although Minnesota is a birth place and home to 
many large food corporations and has a very respectable state 
food insecurity rate of 8.2 percent and is a top-ranking state 
for most health ratings, HCMC rates of household food 
insecurity for families with very young children are the 
highest of any of the five C-SNAP sites: 35 percent compared to 
an average of 15 percent for Baltimore, Boston, Little Rock, 
and Philadelphia. The C-SNAP interviewer taps me again. ``Dr. 
Cutts, I am really worried about that mom. She told me she 
hasn't had much food in the last week because she was kicked 
out of her apartment because the landlord defaulted on the 
mortgage, and now she is living with some friends and her WIC 
vouchers were lost when they moved.''
    And now we contact the clinic social worker to meet with 
mom. I turn to you to teach. Let's talk about the implication 
of food insecurity in this family. In terms of mom's pregnancy, 
poor maternal nutrition is associated with more risk of 
prematurity, complications of delivery and low birth weight, 
which increases the likelihood of infant mortality, infant and 
child health problems, long-term developmental delays and even 
later adult chronic disease. Food insecurity is also linked to 
maternal depression, which has a trickle down negative impact 
on children's health. For Terrance, there is an abundance of 
research on children from infancy to adolescence showing 
associations between food insecurity and lower cognitive scores 
and more emotional and behavioral problems. Developmental 
services to young children are the beginning of a societal cost 
of food insecurity that may be carried on into school years and 
throughout a lifetime.
    I think back to the earlier patient we saw, Julia, the 
screamer. Children in food insecure households are more 
frequently hospitalized with an average hospital cost of over 
$11,000, another economic cost of food insecurity. Children of 
color like Julia are at highest risk for food insecurity which 
contributes to health and achievement disparities by race and 
ethnicity. As the morning goes on, we see little twins with 
anemia, which is 2\1/2\ times more likely in food insecure 
children, and when present, harms brain development. And then 
an adolescent weighing nearly 300 pounds with multiple medical 
and psychosocial problems whose C-SNAP survey many years ago 
revealed some of the most severe food insecurity we had ever 
encountered.
    I plan to talk to you after clinic about the complex 
relationships between food insecurity and obesity. We end with 
a child whose asthma has relapsed because his family didn't 
fill his prescriptions because they had to choose between 
medicine, food or rent. Do all my patients' ills stem from food 
insecurity? Of course not. But for too many of them, food 
insecurity is an invisible constant companion to their health, 
directly and indirectly influencing it in ways both immediate 
and distant.
    I am privileged to be their physician. But my reach as 
their doctor is typically one child, one family at a time. Your 
reach spans the country. And I urge you to think of our time 
together in clinic as you consider legislation like the new 
economic stimulus package. Temporarily increasing food stamp 
benefits as part of the package would do much to directly help 
the children I just told you about.
    Other programs that address basic needs that compete with 
the food budget, such as housing, energy and child care 
assistance, are equally vital, particularly in our current 
economic climate of rising food and energy prices.
    No child deserves to be burdened with the consequences of 
this fully preventable condition for the duration of his or her 
life. And no responsible farsighted society should permit the 
widespread incidence of an economic costly condition like food 
insecurity that is guaranteed to produce a less healthy, less 
capable and less productive population. I have been impressed 
by the insightful questions you have asked as we saw patients 
today and we will try to remember to give you all high marks on 
your rotation evaluation, if I haven't gotten so hungry for 
lunch that my memory is impaired. Class dismissed. Thank you.
    [The prepared statement of Dr. Cutts follows:]

Prepared Statement of Diana B. Cutts, M.D., Faculty Physician, Hennepin 
 Country Medical Center; Assistant Professor of Pediatrics, University 
  of Minnesota; Principal Investigator, Children's Sentinel Nutrition
              Assessment Program (C-SNAP), Minneapolis, MN
    Chairman Baca and distinguished Members of the Committee, my name 
is Dr. Diana Cutts. I am honored to be given the opportunity to share 
with you my experience as a pediatrician and researcher at Hennepin 
County Medical Center (HCMC) in Minneapolis, Minnesota.
    At HCMC my colleagues and I provide care for a diverse, urban 
population of children, including a significant immigrant population. I 
work in both out-patient and in-patient settings in a large general 
teaching hospital, usually supervising a team of bright young medical 
students, interns, and residents. I have special interest in pediatric 
nutritional problems and direct an interdisciplinary team of 
professionals devoted to the care of children who are not growing well. 
For the past fifteen years, I've also been involved in research on 
childhood hunger and I am a Founder and Principal Investigator of the 
Children's Sentinel Nutrition Assessment Program (C-SNAP), a national, 
multi-site pediatric research program which focuses on the impact of 
public policies on babies and toddlers under the age of 3 years.
    As I thought about how I could best add to the discussion today, I 
recognized the tremendous expertise and knowledge of those with whom I 
sit. And I concluded--with some relief--that I could rely on them to 
present specific policy information, while I could speak about a large 
part of what I do--take care of patients and teach trainees. So--I am 
going to ask you all to join me on rounds as my team this morning, as I 
see children. Please place your stethoscopes around your necks, but 
don't bother with white coats--they only scare the kids.
    Our first patient is Julia, a 13 month old who is seen following 
her recent 3 day hospitalization for dehydration due to a stomach 
virus. You tell me her blood chemistries were markedly abnormal at 
admission, but normalized with IV fluids. Looking at the vital signs 
that the nurse has obtained, we see that she is regaining her weight 
though still underweight. In the exam room she begins to scream the 
minute she sees us, clutching her mother in fear. We examine her over 
her protests. Mom is told to bring her back for her well child visit in 
a few months. Her howls cease only as she is carried out of the clinic. 
Suddenly, the clinic is a lot quieter.
    Second on our schedule is Terrance, a 4 year old here to complete 
forms for enrollment in Head Start. He's a busy pre-schooler, but does 
not pass the developmental screening today. His mother, 5 months 
pregnant, is also concerned and accepts our referral to the public 
schools for more extensive developmental evaluation. Together in the 
room, we talk with mom and I become concerned about mom's slightly 
withdrawn and flat affect. She admits yes, she's tired, but she's also 
a bit depressed. We talk about maternal depression and refer mom to 
mental health resources. As we come out of the room, we worry about 
whether mom has the energy to take care of Terrance, the baby, and 
herself. The smartest among you anticipate that I will want to know if 
you made sure that the family is enrolled in the WIC program.
    As they leave for the lab to get Terrance's CBC and lead level, one 
of the C-SNAP interviewers approaches me. ``Dr. Cutts,'' she says, ``I 
hope it was okay that I gave that family two bags of groceries.'' I 
explain to you that it is our practice to offer a bag of groceries to 
families who are surveyed for our C-SNAP program, which has monitored 
the rate of household and child food security and other hardships in 
the clinic for the last 10 years. It turns out you have a background in 
political science and you ask me more about our findings. So I explain 
that although Minnesota is known as one of the top-ranking states for 
most health parameters, the home to a large number of international 
food corporations and a state with an overall state food insecurity 
rate of 8.2%, our hospital's rates of household food insecurity for 
families with children under three are the highest of any of the five 
C-SNAP sites--35% compared to an average of 15% for the Boston, 
Baltimore, Little Rock, and Philadelphia sites.
    The C-SNAP interviewer taps me again. ``Dr. Cutts, I'm worried 
about that mom. She told me that she hasn't had much food for the last 
week because she was kicked out of her apartment building because the 
landlord couldn't pay the mortgage, and now she is living with some 
friends, and her WIC vouchers were lost when they moved, and . . .'' 
Our morning is unraveling pretty fast--we contact the clinic social 
worker and try to get a message to mom in the lab to return to clinic 
so she can meet with him.
    I turn to you to teach--Let's talk about the implications of food 
insecurity for her pregnancy and that not-yet-born child. Prenatal 
nutrition is essential to a healthy pregnancy, but poor maternal 
nutrition is associated with greater risk of prematurity, complications 
of delivery, and low birth weight which increase the likelihood of 
infant mortality, infant and child health problems, long-term 
developmental delays, and even chronic disease, such as heart disease 
and diabetes in adulthood. [i] In addition, maternal depression is more 
than 2\1/2\ times as likely in food insecure households. [ii] 
Depression impacts parenting in negative ways. We've offered mental 
health and visiting nurse services, we've ensured that Terrance and she 
stay enrolled in WIC, which will help protect his health and growth and 
her well-being [iii]--is there more we should do?
    What about Terrance's developmental delay? you ask, interrupting my 
litany.I am impressed with your insightful question and will try to 
remember to give you high marks on your rotation evaluation--I tell you 
that C-SNAP research has shown that very young children who live in 
food insecure households, even those meeting the level of only mild 
food insecurity, are \2/3\ more likely to be at risk for cognitive, 
motor or socio-emotional problems on screening tests when compared to 
those living in food secure households. [iv] Kindergarteners who are 
food insecure are more likely to have emotional and behavioral 
problems, too. [v] In older school-age children, we know that food can 
make a difference in school performance. Some of the strongest words of 
support for school breakfast programs have come from the school staff 
who provide time-out supervision for children who are disrupting a 
classroom. They tell us that a dramatic decrease in these behaviors 
follows institution of breakfast programs, in addition to improved 
school attendance and improved standardized test scores. [vi]
    At any rate, it's probably not a coincidence that this particular 
child, whose mother described serious food insecurity, failed our 
screening. Developmental services to toddlers and pre-schoolers are the 
beginning of a societal cost of food insecurity that may be carried on 
into school years and throughout a lifetime of economic and social 
difficulties and diminished potential. [vii]
    Even I'm getting tired of my long-winded responses to your 
questions now and the nurse is getting worried about us being behind 
schedule. I wisely decide to split you all up to send you each into the 
rooms of the remaining waiting patients. And I sit down for a breather.
    I think of the earlier patient we saw:

    The little screamer, Julia, her family seemed okay, but I know from 
my own local data that children of color, like Julia, are at highest 
risk for food insecurity. Poor nutrition is an important contributor to 
the health disparities that are seen in children of color [viii] as 
well as poor children compared to more privileged children. Children 
from food insecure households are 30% more likely to be hospitalized 
because of their diminished reserve and vulnerability in the face of 
typical childhood illnesses. [ix] An average pediatric hospitalization 
for a child under three costs approximately $11,300, [x] so, at least 
in part, these medical costs are actually another societal economic 
cost of food insecurity. These kids can't just bounce back because 
their immune systems are depressed from inadequate nutrition and they 
often begin a cycle of weight loss and recurrent infections that then 
perpetuate each other. I'll have to keep a close eye on Julia's growth 
at the next visit. Could Julia's hospitalization have been avoided if 
she was living in a more food secure environment? Oh, and was she well-
insured? Would hospital bills further erode the family's ability to put 
nutritious food on the table?
    I take a look at the schedule which tells me which patients you are 
each seeing.
    One of you is doing a follow-up for anemia in 6 month old twins. 
Young children in food insecure households are 2\1/2\ times more likely 
to have iron-deficiency anemia as children in food secure households. 
[xi] And iron deficiency anemia influences young children's brain 
development in detrimental ways, affecting attention, memory and 
language and social ability as well as depressing their immune systems. 
Gotta check in with mom about food security and watch their development 
carefully as I see them at future visits.
    Someone else is interviewing Stephanie, a 14 year old whom I've 
known since she was 3 years old. She's struggled with childhood obesity 
since infancy, really, and her last recorded weight was 278 pounds. She 
began refusing to be weighed 2 years ago, so there's no weight recorded 
today by the nurse. She's had surgery to remove her tonsils and 
adenoids because of obstructive sleep apnea, a well-recognized 
complication of obesity. And she complains of chronic back pain, among 
other medical complaints. More threatening to her current well-being, 
her behavior's become out of control--she's sampling every imaginable 
risky behavior and not attending her alternative school. She's even 
admitted to suicidal thoughts. [xii] I recall how C-SNAP data obtained 
from this family years ago revealed the most severe food insecurity the 
interviewer had ever encountered--and our subsequent discussion about 
the apparent paradox of obesity co-existing with food insecurity due in 
great part to tight food budgets forcing parents to choose low-cost 
foods, which are mostly high in calories and very poor in nutrition. 
[xiii] Many years later, we still have a long way to go to help people 
understand this, and to impart the message that a piece of the response 
to the obesity epidemic must be to address food insecurity.
    We end our morning with Brandon, a 5 year old with a cough, and his 
grandmother. He tells me a knock-knock joke. You tell me he has a 
history of asthma and, in fact, was hospitalized 3 weeks ago for an 
asthma attack and pneumonia. He was in the hospital for 4 days, but his 
grandmother reports he was okay until 2 days ago, when his cough re-
appeared. I'm surprised when she tells me that he's not on any 
medicines. She explains to me that the family was not able to afford to 
fill the prescriptions that were given to them at hospital discharge, 
stating the charge to them was well over $100, and that they needed the 
money for food, the gas bill, and rent. We work out a plan to provide 
the needed medications, and hopefully prevent another hospitalization, 
while still preserving food security, energy access, and housing.
    It's time to dismiss you all for your noon conference while I face 
the chart documentation and a stack of phone messages that I need to 
get to.
    Do all of my patients' ills stem from food insecurity? Of course 
not. But, my reality is that for more than a third of them, food 
insecurity is a constant companion to their health, directly and 
indirectly influencing it in both immediate and distant ways. None of 
these children, who each came to clinic for a different reason, had a 
placard around their neck or a physical sign identifying them as food 
insecure. They are simply the typical pediatric patients seen daily all 
over this country in medical clinics serving low-income populations. 29 
million children in this country are considered low-income, nearly 40% 
of our citizens less than 18 years old. [xiv]
    These are the faces of child hunger in the United States, very 
different from the visibly starved Appalachian babies I saw in LIFE 
magazine when I was growing up, but no less real, no less impactful. 
Food insecurity in childhood changes the trajectory of young lives in a 
real and significant way. The quality of our communities is impacted, 
and there are high, and rising, economic costs which we all bear.
    I feel privileged to play a role in creating a healthy and bright 
future for the children I see at HCMC. But my reach as their doctor is 
typically one child, one family at a time. Your reach spans the country 
and I urge you to think of our time together in clinic and boldly work 
to create programs and policies that promote healthy and bright futures 
for all children. For example, I know that Congress is considering 
another economic stimulus package; I encourage you to make a 
temporarily increased food stamp benefit part of the package, as it 
would do so much to directly help the children I've just told you 
about.
    Nutrition assistance programs, such as the Food Stamp Program and 
WIC, are the medicines needed to treat food insecurity and these 
accompanying illnesses, but the programs need to be dosed at levels 
that cure rather than just diminish the problem. The programs are also 
critical and economically sound investments on the health end of the 
equation, as they provide the physiological building blocks necessary 
for proper growth, health, development, and learning. Better still 
would be a society in which an adequate, nutritious diet is achievable 
for every child without targeted intervention programs. Until that day 
comes, preventive efforts are the best way to avoid the tangible and 
long-lasting costs of food insecurity in childhood. Other programs that 
assist low-income families with basic needs that compete with the food 
budget, such as housing, energy, and childcare assistance, are equally 
vital, particularly in our current economic climate of rising food and 
energy prices.
    No child deserves to be burdened with the consequences of this 
fully preventable condition for the duration of his/her life, and no 
responsible, far-sighted society should permit the widespread incidence 
of a condition like food insecurity that is guaranteed to produce a 
less healthy, capable, and productive population.
    Class dismissed.
    Thank you.
Endnotes
    [i] Cook J.T. and Frank D.A. Food Security, Poverty, and Human 
Development in the United States. Ann. N.Y. Acad. Sci. 2008; xxxx: 1-
16.
    [ii] Casey P., Goolsby S., Berkowitz C. et al., Maternal 
Depression, Changing Public Assistance, Food Security, and Child Health 
Status. Pediatrics. 2004; 113(2):298-304.
    [iii] Black M., Cutts D., Frank D.A. et al., Special Supplemental 
Nutrition Program for Women, Infants, and Children (WIC) Participation 
and Infants' Growth and Health: A Multisite Surveillance Study. 
Pediatrics 2004: 114(1):169-176.
    [iv] Rose-Jacobs R., Black M., Casey P., et al. Household food 
insecurity: Associations with at-risk infant and toddler development. 
Pediatrics 2008; 121:65-72.
    [v] Stormer A. and Harrison G.G. Does household food insecurity 
affect cognitive and social development of kindergarteners? California 
Center for Population Research, University of California-Los Angeles, 
November 2003.
    [vi] Minnesota Department of Children, Families & Learning, Fast 
Break to Learning--1999-2000 Executive Summary and Meals for Learning 
2000 Report.
    [vii] Murphy C., Ettinger de Cuba S., Cook, J. et al. Economic 
Costs of Food Insecurity for Young Children: A Report from the 
Children's Sentinel Nutrition Assessment Program (C-SNAP) and the Food 
Research and Action Center (FRAC). Commissioned by the Partnership for 
America's Economic Success and Pew Charitable Trusts. Forthcoming 
October 2008.
    [viii] The Impact of Food Insecurity on the Development of Young 
Low-Income Black and Latino Children; and Protecting the Health and 
Nutrition of Young Children of Color: The Impact of Nutrition 
Assistance and Income Support Programs. Research Findings from the 
Children's Sentinel Nutrition Assessment Program (C-SNAP); Prepared for 
the Joint Center for Political and Economic Studies Health Policy 
Institute, May 2006.
    [xi] Cook J.T., Frank D.A., Berkowitz C., et al. Food Insecurity is 
Associated with Adverse Health Outcomes Among Human Infants and 
Toddlers. Journal of Nutrition. 2004; 134:1432-1438.
    [x] Children's Sentinel Nutrition Assessment Program unpublished 
data (excluding costs associated with birth), 2007.
    [xi] Skalicky A., Meyers A., Adams W., et al. Child Food Insecurity 
and Iron Deficiency Anemia in Low-Income Infants and Toddlers in the 
United States. Maternal and Child Health Journal. 2006;10(2):177-185
    [xii] Falkner, N.H. et al. Social, educational, and psychological 
correlates of weight status in adolescents. Obesity Research 2001; 
9(1):32-42.
    [xiii] Drewnowski, A. and S.E. Specter. Poverty and obesity: The 
role of energy density and energy costs. Am. J. Clin. Nutr. 
2004;79(1):6-16.
    [xiv] National Center for Children in Poverty. Poverty 101. http://
www.nccp.org/faq.html Accessed July 20, 2008.

    The Chairman. Thank you very much.
    Next I would like to have Mr. Manalo-LeClair.

           STATEMENT OF GEORGE MANALO-LeCLAIR, SENIOR
          LEGISLATIVE DIRECTOR, CALIFORNIA FOOD POLICY
                     ADVOCATES, OAKLAND, CA

    Mr. Manalo-LeClair. Good morning, Mr. Chairman and Members 
of the Committee. My name is George Manalo-LeClair, and I am 
with the California Food Policy Advocates. We are a statewide 
organization dedicated to improving access to nutritious and 
affordable food for low-income Californians. I have come a long 
way to do three things: One, to describe the problem of hunger 
and food insecurity in California, the enormous problem that we 
have. I also want to tell you about how the Food Stamp Program 
is working to address part of that problem. However, it still 
falls very short in reaching a number of households, 
particularly working households in our state. And third, I want 
to say thank you for recent improvements in the farm bill to 
address nutrition. But because of our struggling state economy, 
I am going to need to ask for additional help.
    So let's start with the problem of food insecurity in 
California. People are often surprised when I describe the 
situation because it is in stark contrast to the image many 
people have of the Golden State. The problem is real and well 
documented. Since 2001 the University of California Los Angeles 
has examined the problem of food insecurity through the 
nation's largest state health instrument, the California Health 
Interview Survey also known as CHIS. My written comments go 
into greater detail on CHIS and its findings.
    I just want to summarize the findings. As an example, a 
woman I met just a few years ago, she was part of a culinary 
training program in Silicon Valley, one of the more prosperous 
parts of our state. And though she was working around food all 
day, money was very tight, and at home she didn't have enough 
for her and her children. So what she would do at meal times is 
that every dinner she would pour herself a big glass of water 
and drink it, and then pour herself another one and drink it. 
She did this to fool herself into feeling full so she wouldn't 
be tempted to take food away from her children. The CHIS data 
make it clear that this woman is not alone. Over 2\1/2\ million 
adults in California struggle to put food on the table. And 
like this woman in Silicon Valley, many of those struggling are 
surrounded by wealth and food.
    It is ironic that in California the counties with the 
greatest agricultural production output also have the highest 
rates of food insecurity. And as this mom knows, hard work is 
no guarantee against hunger. The majority of those experiencing 
food insecurity in California are working. The combination of 
high rents and low wages leave little resources for food. But 
while we have seen the consequences that other panelists have 
noted this morning, we have also seen a powerful tool at work, 
the Food Stamp Program in our state. It serves over two million 
people and brings in over $4 billion in economic activity. That 
does much to address the problems discussed today.
    However, one of the most troubling findings from CHIS is 
that 77 percent of those struggling to put food on the table 
who are likely eligible for food stamps were not getting them. 
This is consistent with USDA's own estimates of over two 
million people in California not participating in the program 
and only 35 percent of working households are getting these 
benefits in our state. So given that working families make up 
the majority of those struggling, the Food Stamp Program can 
and must do more.
    Some help is already on the way, thanks to the changes in 
the recently passed farm bill. So I want to extend our thanks 
to the Chairman and Members for their work in this area as 
California stands to be a big winner with these changes. But 
while we are very grateful, we are compelled, given the scope 
of the problem in our state, to ask for additional action. We 
need action to improve access to the Food Stamp Program, to 
make it more accessible to working families. We need action to 
increase food stamp benefits not just to address rising food 
costs, but also to make the cost of the program, the long 
waits, the paperwork, the trips to the welfare office cost 
beneficial to participants.
    We also need to extend aid to populations whose 
participation in the program is currently limited, such as 
legal immigrants and childless adults. There are a number of 
Congressional proposals that already exist that would move us 
in this direction such as the Chairman's Nourish Act and the 
McGovern-Emerson Feeding America's Families Act, and moving 
these proposals forward would certainly help the situation. But 
right now things are getting worse for our low-income 
residents. Average gas prices in California are over $4.51 a 
gallon. We have seen double-digit increases in basic foods like 
bread and eggs, and demand for emergency food and food stamps 
has increased.
    We have enormous budget shortfall in our state, and we have 
been hit hard by the mortgage and lending crisis, but there is 
hope. Our legislative analysts have demonstrated that the Food 
Stamp Program has broad economic effects on our state. Here is 
the quick version of the analysis. When families get food 
stamps in California, it frees up resources in their tight 
budgets to be spent on taxable items like clothes and shoes. So 
our state's general fund benefits as well as local 
jurisdictions.
    So we are requesting a short-term boost in food stamp 
benefits to help our struggling families and our struggling 
economy. We are pleased to hear that Speaker Pelosi is 
considering a package that includes food stamps in overall 
economic recovery. We strongly support efforts that help people 
better afford a basic healthy diet. Given the importance of 
agriculture and the food industry to our state's economy and 
because of the revenue effect discussed earlier, such action 
would go a long way to helping our families and our fiscal 
situation. We appreciate the Committee's interest in this issue 
and do hope that help is on the way. Thank you very much.
    [The prepared statement of Mr. Manalo-LeClair follows:]

    Prepared Statement of George Manalo-LeClair, Senior Legislative 
        Director, California Food Policy Advocates, Oakland, CA
    Good morning, Mr. Chairman and Members of the Committee.
    My name is George Manalo-LeClair and I am Senior Legislative 
Director for California Food Policy Advocates. CFPA is a statewide 
public policy and advocacy organization whose mission is to improve 
access to nutritious and affordable food for low-income Californians.
    I appreciate the opportunity to testify today, as California has 
much to offer to this Committee's consideration of the short and long 
term effects of hunger in America.

    First, we have undertaken the largest statewide health survey in 
        the country and found the problem of food insecurity is 
        enormous in scope and impact.

    Second, as our state has sought to address the problem, 
        policymakers have acknowledged and quantified the contribution 
        that Food Stamp Program benefits make, not only to families, 
        but also to our state and local economies.

    Third, building upon this economic benefit, I'd like to make a 
        request for swift action to provide California residents 
        immediate relief in these tough times.
Food Insecurity in California
    Let's start with the problem of food insecurity in California. 
Though California has been number one in food and agriculture 
production in the U.S. for more than fifty years, we have millions of 
people struggling to put food on the table. We know this because in 
2001, and biennially since, the University of California has conducted 
a large scale, statewide study, called the California Health Interview 
Survey (CHIS), to assess a broad range of health conditions, including 
food insecurity.
    CHIS has been a massive and reliable effort. CHIS is the largest 
state health survey and one of the largest health surveys in the 
country. Because of its large sample size, with over 50,000 households 
interviewed, it generates statistically significant findings for the 
entire state and for most of our 58 counties. This biennial survey is 
conducted by the University of California at Los Angeles in 
collaboration with the California Department of Public Health, the 
Department of Health Care Services and the Public Health Institute
    UCLA publishes the food insecurity findings every 2 years. I have 
been a co-author of this research since its inception and have 
participated in each biennial release.
     At first, the scope of the food-insecurity problem seemed 
unbelievably large, but over time the results have painted a consistent 
picture. According to the most recent CHIS release in 2007, 
approximately 2.5 million low-income adults in California struggle to 
put food on the table.\1\ But this figure doesn't capture the full 
extent of the problem since this survey measures food insecurity only 
among adults. We know that these adults are not alone in their 
struggles, and we know that despite their best efforts, parents aren't 
always able to shield their kids from the consequences of hunger and 
food insecurity. Before I quantify the full dimension of this 
comprehensive understanding of how food insecurity affects real 
households, let me give you an example of one parent's attempt to 
protect her children.
---------------------------------------------------------------------------
    \1\ UCLA Food Insecurity Brief, June 2007. http://
www.healthpolicy.ucla.edu/pubs/publication.asp?pubID=225.
---------------------------------------------------------------------------
    Several years ago I met a woman who was in a culinary training 
program in our state's prosperous Silicon Valley. Money was really 
tight for her and despite working around food all day, she just did not 
have enough to provide for her family. At the dinner table she'd be 
hungry, but there wasn't always enough food for her children and for 
her. So to keep herself from taking food from her children, she'd pour 
herself a big glass of water. And then another. And sometimes another 
so that she would fool herself into feeling full and not be tempted to 
take food that would otherwise go to the children.
    Not all parents are this successful in shielding their children. 
Based on the CHIS data, more than 7.5 million other people living with 
these adults also experience food insecurity. Given that these 
households share dinner tables, in many cases they must also share in 
their struggles with food. Understood this way, over nine million 
people in California--perhaps a quarter of the population--are being 
affected by these struggles.\2\
---------------------------------------------------------------------------
    \2\ Shared Tables, Shared Struggles. CFPA. November 2007. http://
www.cfpa.net/press/shared%202007/
shared%20tables%20shared%20struggles%202007.pdf.
---------------------------------------------------------------------------
    The wealth of data provided by the CHIS survey presents a 
surprising snapshot of who is hungry in the state:

  <bullet> In California, hard work is no guarantee against hunger; the 
        majority of households experiencing food insecurity are 
        employed. Low wages and high rents mean many working families 
        don't always have enough resources for food.

  <bullet> In California, hunger does not discriminate. Food insecurity 
        affects people of many races, though Latinos and African-
        Americans experience it at higher rates. Immigrants are among 
        the hardest hit.

  <bullet> Food insecurity in California also knows no boundaries as it 
        is prevalent in all 58 counties. But some communities are hit 
        much harder than others. It is ironic that the counties with 
        the greatest agricultural production also have the greatest 
        percentage of their population struggling with food.

    Families with children are much more likely than families without 
children to struggle to put food on the table in California.
Consequences of Food Insecurity in California
    It is clear that those lacking consistent access to adequate food 
suffer profound consequences. Other panelists today are going to go 
into greater detail on the health, employment and academic consequences 
of food insecurity. I'd also like to acknowledge the connections we 
have seen and measured, most notably that children in very low food-
insecure households miss more school and do less well academically. And 
that those adults with food insecurity who experience health problems, 
such as diabetes and other obesity related conditions, have 
significantly more complications, more hospitalizations and more trips 
to the emergency room because of their food insecurity. One challenging 
finding is that in California those experiencing food insecurity are 
more likely to be overweight or obese. The remarkably steep price tag 
of obesity to our state--and the nation--is well documented.\3\
---------------------------------------------------------------------------
    \3\ The Economic Costs Of Physical Inactivity, Obesity, And 
Overweight In California Adults, State Department of Health Care 
Services http://www.wellnesstaskforce.org/PDF/obese.pdf.
---------------------------------------------------------------------------
Addressing the Problem
    The common factor among all of these struggling Californians is a 
lack of income. Policy action to increase wages, to make housing more 
affordable, and to adequately provide supports for the working poor 
like child care and health care would go a very long way to address the 
problem.
    Short of this, we need a strong nutrition safety net. However, the 
CHIS data make it clear that current efforts are failing to make much 
progress in providing food security for low-income Californians.
Problems With Food Stamps in California
    One of the most troubling findings of the California Health 
Interview Survey was the severe underutilization of the Food Stamp 
Program. More than 77 percent of those households identified as 
experiencing food insecurity in California who had qualifying incomes 
were not participating in the program. This means that essential help--
that Congress put in place precisely for these people in this 
predicament--is not getting to those most in need.
    These CHIS findings are consistent with USDA research on food stamp 
participation in California. California has one of the worst food stamp 
participation rates in the country, and USDA estimates that over two 
million eligible Californians are not receiving food stamps.\4\ If more 
Californians were receiving these valuable nutrition benefits, the 
problem of food insecurity discussed earlier would be greatly reduced.
---------------------------------------------------------------------------
    \4\ Reaching those in need. USDA. October 2007. http://
www.fns.usda.gov/OANE/MENU/Published/FSP/FILES/Participation/
Reaching2005.pdf. 
---------------------------------------------------------------------------
    The average monthly benefit per person in California is now just 
over $100. With rising food costs, this amount falls short of providing 
families with an adequate diet, but it certainly could make a 
tremendous difference for those not currently participating. 
Unfortunately, a number of state and Federal rules make it difficult 
for struggling households, especially working families, even to 
participate. More than 70 percent of the households eligible for food 
stamps in California are working households.\5\ According to USDA, 
California has the worst rate of food stamp participation among working 
people in the country. Just 35 percent of eligible working households 
in California participate in food stamps.\6\
---------------------------------------------------------------------------
    \5\ Comparison of Participation Rates Working vs. Non-Working. 
CFPA. April 2001. http://www.cfpa.net/foodstamps/Participation/
workpart.pdf. 
    \6\ State Participation Rates for the Working Poor. USDA. http://
www.fns.usda.gov/OANE/MENU/Published/FSP/FILES/Participation/
WorkingPoor2003.pdf.
---------------------------------------------------------------------------
    When struggling working families don't get food stamps, it is not 
just the families that miss out but our economy as well. As CFPA's 
report Lost Dollars, Empty Plates points out, poor participation hurts 
our economy as well. California is passing up over $2 billion a year in 
Federal nutrition benefits. This money would certainly help families, 
but in addition it could generate close to $4 billion annually in 
economic activity.
Capturing the Economic Benefits of Food Stamps to California
    Policymakers in California are working to improve the reach of food 
stamps in our state. In response to interest from state legislators, 
the non-partisan Legislative Analyst's Office published a policy brief 
that has helped capture the economic benefits of food stamps to the 
state.\7\
---------------------------------------------------------------------------
    \7\ LAO Budget Analysis Food Stamp Program. http://www.lao.ca.gov/
analysis_2004/health_ss/hss_20_foodstamps_anl04.htm. 
---------------------------------------------------------------------------
    The direct benefits of food stamps to families in our state are 
clear. But our analyst discovered that food stamps can also have 
economic benefits for our state and local economies. Under this 
analysis, food stamp dollars can lead to increased spending on taxable 
items. Though food is not taxed in our state and food stamp law 
prohibits taxes on food stamp purchases, increased food stamp funding 
nonetheless can actually increase state general fund revenues. This is 
so because when families get food stamps there is indeed increased 
spending on food but, in addition, resources are freed up in tight 
family budgets to be spent on taxable items such as clothes and shoes. 
Under this so-called ``premise,'' this food stamp infusion generates 
about 45% of the value of the food stamps in taxable activity. With a 
state share of the sales tax pegged at 5%, one can see that increased 
food stamp spending can have a significant and positive impact on our 
state's strained general fund. And, because local communities receive a 
share of sales tax revenues (and in many cases add on to the sales 
tax), there are significant benefits from increased food stamp 
participation for local jurisdictions as well.
    While this analysis falls short of the standard of peer-reviewed 
research, it is nonetheless embraced by the legislature, the 
Schwarzenegger Administration and advocates. Recognizing this, this 
analysis deserves further considerations and the Food Stamp Program 
deserves further investment. If Food Stamp Program participation were 
maximized in California, our state and counties could realize over $70 
million a year in increased revenues. Given our state's fiscal crisis, 
we can use all the help we can get.
Taking Action
Recent Progress
    Some help is already on the way, thanks to changes in the recently 
passed farm bill. We want to thank the Chairman and Members for your 
efforts to improve food stamps. The actions taken will help stop the 
erosion of food stamp benefits, will provide additional relief for 
working families with high child care costs, and help remove several 
disincentives to savings and asset development.
    California stands to be a big winner with these changes. Support 
for nutrition will increase by an estimated $700 million dollars over 
the next 5 years. More than 800,000 California residents will feel 
these benefits.
    While we are very grateful for this new investment, given the scope 
of the problem we are compelled to ask for additional action. We need 
to bring benefits to those struggling families who aren't participating 
in food stamps and we need to improve benefits for those that are. 
California needs a combination of actions which:

    1. Simplify the program and improve access for working people who 
        often can't complete program requirements because of work 
        commitments.

    2. Increase benefits not only to address rising food costs and to 
        better support a healthy diet but also to better offset the 
        `costs' of participating in food stamps (long waits, lots of 
        paperwork, many trips to the food stamp office) to families.

    3. Extend aid to populations whose participation in food stamps is 
        currently limited, such as legal immigrants and childless 
        adults.

    Congressional proposals already exist which would continue the 
progress already made by the farm bill and help families meet the 
demands of rising food prices. There are a number of provisions from 
the Chairman's ``Nourish Act'' that were not incorporated in the farm 
bill that would help--most notably a restoration of benefits to legal 
immigrants who are currently denied help. The McGovern-Emerson 
``Feeding America's Families Act'' has additional provisions, which if 
enacted would further improve benefits, help vulnerable childless 
adults, and further support savings and asset development. If Congress 
were to enact the provisions found in these two pieces of legislation, 
the pain of hunger would be lessened in our state.
A New Opportunity To Help Struggling Families and Our Economy
    We will soon have an updated picture of the problem of food 
insecurity, as a new round of health survey data has been collected for 
the next CHIS report. Though updated, it still won't capture the most 
recent impacts of rising food and gas prices and other struggles. Our 
state legislature recently convened hearings on the topic and it was 
clear things were getting worse for low-income residents: Average gas 
prices over $4.51 a gallon. Double digit increases for basic foods like 
bread and eggs. There have been increased demands for emergency food 
and food stamps. More needs to be done.
    Our state economy needs help, too. We have an enormous budget 
shortfall--currently estimated at more than $15 billion. Unemployment 
is rising with preliminary estimates for June of a 6.9% unemployment 
rate. And we have been hit hard by the mortgage and lending crisis.
    A short-term boost in food stamp benefits could help our struggling 
families and our struggling economy. The annual adjustment in food 
stamp benefits scheduled for October 1st will fall well short of 
providing what struggling families need for a bare-bones diet. Because 
the data used to calculate these benefit levels is already out of date, 
the new increase--on the day it is delivered--may already be more than 
$40 a month less than what a family of four needs to purchase a 
minimally adequate diet. Given this forecast, swift action is needed.
    We are pleased to hear that Speaker Pelosi is considering including 
food stamps in an economic recovery package. We strongly support 
efforts to provide a temporary boost in basic food stamp benefit levels 
to help people afford a basic healthy diet. We would welcome the 
opportunity to help the Committee shape such a package--its passage 
would minimize hunger by giving families a boost to meet these rising 
demands.
    We also need this boost to help our state's struggling economy.
    Given the importance of agriculture and the food industry to our 
state's economy, such action would go a long way in improving our 
fiscal situation. We hope that any new stimulus package would include 
this much-needed economic spark.
    Thank you for your consideration.

    The Chairman. Thank you very much.
    Next is Mr. Weill.

   STATEMENT OF JAMES D. WEILL, PRESIDENT, FOOD RESEARCH AND 
                ACTION CENTER, WASHINGTON, D.C.

    Mr. Weill. Good morning. Chairman Baca, Members of the 
Subcommittee, I am Jim Weill from the Food Research and Action 
Center. And I deeply appreciate the opportunity to testify 
today. We greatly appreciate as well the work you did to 
produce such an excellent nutrition title in the farm bill.
    The number of people living in households facing food 
insecurity is far too high in this country and it has been 
growing. It rose from 31 million in 1999 to more than 35 
million in 2006. And the problem has been getting deeper as 
well as broader. The large majority of that numerical growth in 
that period was in the most severe subcategory, very low food 
security or what USDA used to call food insecure with hunger. 
And almost certainly the problem is considerably worse today 
than in 2006 as families face declining wages and rising food 
and energy prices. That is why it is important for Congress to 
pass a temporary boost, as has been mentioned, in food stamp 
benefits soon that will not only mitigate the impact of rapid 
food inflation and the worsening economy, but will also provide 
real stimulus.
    Dollar for dollar, there is no better economic stimulus, 
both conservative and liberal economists have recognized this, 
there is no better economic stimulus expenditure than food 
stamp benefits because they get into the economy so fast and 
have multiplier effects.
    But too many families were struggling with hunger before 
the recent economic problems. So even if and when we get back 
to the situation in 2006, we badly need long-term solutions as 
well.
    We need solutions because, as the panel has said, hunger 
and food insecurity harm physical, social and cognitive 
development, education, health and mental health and 
productivity. They contribute to obesity, stress and 
depression. They increase public and private health costs, 
mental health costs, hospitalization and educational and other 
costs. And even when parents skip meals to insulate their 
children from hunger, the parents' own struggle, their stress 
and depression, ultimately affects the children.
    As Dr. Mark Nord indicated earlier, parents do a great deal 
to protect children against the worst deprivation of food 
insecurity in the household. But the children can suffer 
considerable harm nonetheless.
    We should be appalled that our society allows all of this 
to happen. And it is well within our capacity to end hunger. 
Yet we have more than 35 million people in households where 
members are skipping meals, where unhealthy diets are routine 
because of economic necessity, where children dread weekends 
because there are no school meals and cupboards at home are 
nearly empty. And these problems are interwoven with other 
national challenges that we face. We are going to have to solve 
the food insecurity problem: if we want an effective and cost-
effective national health strategy; if we want a successful 
anti-obesity strategy; and if we want to improve schools and 
student performance.
    Food stamps alone can't end hunger in this country. We also 
need better wages and stronger programs for economic security. 
And we need stronger child nutrition programs, school meals and 
WIC and summer and after-school food and childcare food. The 
food stamps are the critical base of the strategy. The recent 
farm bill, as you know, made some important improvements. 
Again, we thank you, Mr. Chairman and the Subcommittee. But the 
Food Stamp Program, or as it will be known from October 1, the 
Supplemental Nutrition Assistance Program, or SNAP, has to be 
strengthened further.
    First, allotments just aren't enough to sustain health and 
well-being. Benefits typically run out well before the end of 
the month. The many Members of Congress, journalists, religious 
leaders and others who, over the last 18 months have taken the 
food stamp challenge, trying to live for a week on a typical 
food stamp allotment, have spoken eloquently to the hardships. 
Dr. Debbie Frank, a C-SNAP colleague of Dr. Cutts, has referred 
to food stamps as the equivalent of a magical medicine or 
vaccine, but one that we provide in a sub-therapeutic dose. We 
need to make the dose adequate to create and sustain health.
    We also need the program to reach many more low-income 
people. This means removing some arbitrary barriers. But it 
also means better efforts at all levels of government to 
connect eligible people to benefits. Nationally only 67 percent 
of those eligible actually receive benefits. And in many places 
the number is far worse because there is too much red tape or 
too little outreach or state and local rules purposefully 
narrow participation.
    When my organization looked at participation in 24 big 
cities, the estimated rates were as low as 35 percent in San 
Diego. USDA's study show some states with participation rates 
as low as 49 percent, and 39 percent for working families. Of 
course this harms low-income people, but it also harms local 
economies. Every dollar of benefits that enter a community 
produces nearly twice that much in economic activity.
    So in sum, the cost of hunger is far too high to continue 
to tolerate such losses rather than to seize the potential for 
gains by making every American family food secure. There is too 
much at stake, not only in terms of health and early childhood 
development in education, but also productivity, economic 
growth and community development. And we look forward to 
working with you to make a stronger SNAP program a far more 
reliable bulwark against hunger in this country. Thank you.
    [The prepared statement of Mr. Weill follows:]

  Prepared Statement of James D. Weill, President, Food Research and 
                    Action Center, Washington, D.C.
    Chairman Baca and Members of the Subcommittee, I am Jim Weill, 
President of the Food Research and Action Center, and we deeply 
appreciate the opportunity to testify at this important hearing today.
    We greatly appreciate as well the work you did to produce an 
excellent nutrition title in the farm bill over the past 18 months; and 
we applaud your leadership in taking up so quickly the important 
concern of what remains to be done to address hunger in America and its 
harmful effects.
    Before talking about the effects of hunger on the people of this 
country, I would like to discuss very briefly the extent of hunger and 
food insecurity. It is, after all, only because the problems of hunger 
and food insecurity are so unnecessarily widespread in our country that 
the effects are so significant for children and for adults, for our 
nation's health and educational systems and outcomes, for our nation's 
productivity, and for the economy as a whole and our fiscal well-being.
    The latest official poverty data and hunger data from the Census 
Bureau and the U.S. Department of Agriculture are for 2006, and they 
tell us that, even as the economy grew in the early part of this 
decade, lower-income Americans were receiving a shrinking share of the 
economic pie. Because of inadequate wages and economic supports, the 
number of people living in poverty rose from 31.6 million in 2000 to 
36.5 million in 2006. The number of people living in households facing 
food insecurity--the government phrase for families without the 
resources to feed themselves enough, or unable for economic reasons to 
purchase a healthy diet, or otherwise struggling with hunger--rose from 
31 million in 1999 to 35.5 million in 2006. More than 12 million of the 
people living in food insecure households were children.
    The problem not only has been getting broader, it has been getting 
deeper: almost all of the growth in food insecurity from 1999 to 2006 
was in the most severe sub-category, what USDA now calls ``very low 
food insecurity'' (and which was known, until 2 years ago, as ``food 
insecure with hunger''). The number of people in households in this 
most severe sub-category rose from 7.8 million in 1999 to 11.1 million 
in 2006.
    Almost certainly the numbers are considerably worse today. For much 
of the last year the economic data have been dominated by rising food 
and energy prices, stagnant or declining wages, and growing 
unemployment, as well as severe housing problems. The food insecurity 
numbers described earlier were for 2006. There is little doubt that the 
2007 data, which will be released in November, will be worse, and that 
the data for 2008, which we will not see released for another 16 
months, will be worse still.
    There are interventions needed now to mitigate the impacts of wider 
and deeper food insecurity caused by the current inflation and economic 
downturn. The suffering of families has deepened considerably. For 
example, the Food Research and Action Center estimates that the monthly 
cost of the Thrifty Food Plan (the food stamp market basket) has grown 
by $40 for a family of four since food stamp benefits were last 
adjusted for inflation--a huge impact on low-income families that 
already had inadequate resources to purchase a healthy diet.
    Most important, in the short run, is the need for a temporary boost 
in food stamp benefits. This not only will help low-income families 
grapple with weak economic conditions, including rapidly rising food 
prices, but also will provide real economic stimulus to the nation's 
economy. Dollar for dollar there is no better stimulus expenditure than 
food stamp benefits because they get into the economy so fast: USDA and 
the states can get them quickly onto beneficiaries' Electronic Benefit 
Transfer cards, and hard-pressed beneficiaries will spend the boost 
quickly. This has been noted in the last 6 months by economists and 
budget experts ranging from Martin Feldstein to Robert Rubin, and from 
Ben Bernanke to Peter Orszag.* It is essential that a significant 
increase in food stamp help be part of any forthcoming economic 
stimulus or economic recovery package.
---------------------------------------------------------------------------
    * These and other statements can be found at www.realstimulus.org. 
---------------------------------------------------------------------------
    But we also must recognize that this nation had intolerably high 
levels of food insecurity before the economic downturn and escalating 
food price inflation, and will have them after economic recovery unless 
we focus on long-term solutions as well.
    Long-term solutions are essential because the damage from hunger 
and food insecurity to individuals and families, to schools and the 
health care system, and to our economy as a whole is so great. I am 
just going to summarize how the harms play out, and then focus briefly 
on a couple of particular points.

  <bullet> Maternal undernutrition can impair body, organ and cellular 
        growth in the fetus; increases the risk of certain birth 
        defects; and contributes to low infant birthweight, which is 
        strongly correlated with perinatal and infant mortality.

  <bullet> Food insecurity among very young children can cause stunted 
        growth, iron deficiency anemia and delayed cognitive 
        development. Cognitive delays then can last well beyond the 
        period of nutritional deficiency--the resulting impaired IQ, 
        motor skills and coordination can last into the elementary 
        school years and beyond.

  <bullet> Food insecurity harms children's physical growth and immune 
        systems, and causes weakened resistance to infection. Food 
        insecure children are far more likely to be reported in poor 
        health, to catch colds, and to have stomach aches, headaches, 
        ear infections and asthma.

  <bullet> Food insecurity in both early childhood and the school years 
        means that children lag their peers and learn less, and these 
        learning deficits cumulate. School-age children who are food 
        insecure are more likely to be absent from school, be 
        hyperactive; behave poorly; be held back; do worse on tests; 
        and be placed in special education.

    All of these consequences of hunger and food insecurity result in 
increased health, mental health, hospitalization, educational, juvenile 
justice and other costs. As just one example, among children under age 
3, according to one study, those who are food insecure are 90 percent 
more likely to be in poor health and 30 percent more likely to require 
hospitalization.
    For adults as well, there is a broad range of adverse outcomes of 
food insecurity. Some of them carry over from childhood. But food 
insecurity during the adult years independently means lower 
productivity and, as is true with children, means more doctor visits, 
higher rates of hospitalization and longer hospital stays, and poorer 
health.
    Adult hunger and food insecurity also harm the children in the 
household. Two examples show how not only does hunger harm adults and 
children, but also how children will suffer even when adults bear the 
brunt and the children have enough to eat. One example involves 
depression, anxiety and stress; the other, overweight and obesity.
    Often both of the parents or the single custodial parent in a 
household do everything they can to protect the children from the 
direct consequences of food insecurity or hunger: the children eat 
first, and get ``enough'' to eat (it may be filling but not be an 
adequate, healthy diet because of the resource constraints). But the 
parents are often hungry or skipping meals to protect the children. The 
resulting stress and depression with which food insecurity is 
associated harm not only the parents but the children's health and 
mental proficiency. Food insecurity adversely affects parent-child 
relationships.
    One survey of several thousand mothers of 3 year old children in 18 
large cities found that mental health problems in mothers and 
behavioral problems in their preschool-aged children were twice as 
likely in food insecure households as in food secure households. In 
discussing their findings, the researchers assert: ``Social policy can 
address food insecurity more directly than it can address many other 
early-life stresses, and doing so can enhance the well-being of mothers 
and children.''
    As to obesity, research has shown that obesity too can be a 
consequence of food insecurity. Obesity among both adults and children 
means more cardiovascular disease, diabetes, and hypertension. Among 
adult food insecure women who have children, the reasons for obesity 
may include the ways in which low-income mothers must cope with limited 
resources for food--sacrificing at times their own nutrition in order 
to protect their children from hunger and lower nutritional quality. 
Food insecurity and poverty may also act as physiological stressors 
leading to hormonal changes that predispose adult women to obesity.
    But there are connections between food insecurity and obesity for 
children as well. Children in food insecure households are more likely 
to be at risk of overweight or to be obese. When children are both born 
at low birthweight and live in a family suffering from food 
insufficiency, they have a 27.8 times higher chance of being overweight 
or obese at age 4\1/2\.
    Finally, we must not forget that food insecurity harms seniors. 
Food insecure elderly persons have been found to be 2.33 times more 
likely to report fair or poor health status. And food insecurity among 
elders increases disability, decreases resistance to infection, and 
extends hospital stays. Moreover, many medications need to be taken 
with food to assure their effectiveness. Too many seniors have to skip 
meals in order to purchase medication, only to see a ``Take with food'' 
label on the prescription bottle because without food the drug will be 
less effective. Medically this is self-defeating, and, ultimately, 
costly. And from the patients' perspective it is a cruel ``Catch-22.''
    What all this comes down to is that hunger and food insecurity not 
only are unnecessary and immoral in our wealthy nation, but they are 
vastly counter-productive in every important realm. They are a 
hindrance to our accomplishment of a range of essential national goals:

  <bullet> At a time when the nation is looking for strategies to 
        broaden health insurance coverage and improve quality of health 
        care while controlling costs, eliminating food insecurity is a 
        necessary part of an effective and cost-effective national 
        health strategy.

  <bullet> As the nation struggles to address its obesity epidemic, 
        establishing food security and assuring that families have 
        resources adequate to purchase a healthy diet are essential 
        components of a successful anti-obesity strategy.

  <bullet> At a time when our scientific knowledge of the critical 
        importance of early childhood development has been growing by 
        leaps and bounds--although our policy development is having 
        trouble keeping pace--eliminating food insecurity is a 
        prerequisite to the strongest possible early childhood policy.

  <bullet> As the nation struggles with education policy and the 
        reauthorization of the No Child Left Behind Act, eliminating 
        food insecurity is a compelling and cost-effective strategy to 
        improve schools and student performance.

  <bullet> And as we struggle to restore economic growth, boost 
        productivity, improve our competitiveness, and keep deficits 
        under control, eliminating food insecurity is one important key 
        to improving the nation's economic and fiscal futures.

    It is essential that we address hunger and food insecurity in this 
nation and thereby eliminate the harms they cause. The Food Stamp 
Program and other Federal nutrition programs have brought the nation a 
long way; and the recent farm bill made some important improvements in 
the Food Stamp Program. Again, we thank you, Mr. Chairman, and the 
Subcommittee, for your leadership in accomplishing this. But the Food 
Stamp Program (or, as it will be known from October 1st, the 
Supplemental Nutrition Assistance Program, or SNAP) in particular must 
be strengthened further so we can truly move towards eradicating hunger 
and food insecurity in the midst of our great affluence.
    This requires three broad strategies: making benefit allotments 
adequate; opening eligibility to more needy people; and connecting more 
eligible people with benefits, since only 65 percent of currently 
eligible people, and barely half of eligible low-income working 
families, participate in the program.
    Food stamps alone can't end hunger in this country--we also need 
stronger cash programs for economic security (refundable tax credits, 
unemployment insurance and other investments) and stronger child 
nutrition programs (school meals, WIC, summer and after-school food, 
child care food). But food stamps are the critical base of the anti-
hunger strategy.
    Let me first address the pre-eminent need--to make benefit 
allotments more adequate. Food stamps are extraordinarily effective for 
families, but allotments just aren't enough to sustain health and well-
being. It is the norm rather than the exception for a food stamp 
recipient household's benefits to run out several days before the end 
of the month--often in the third week of the month. The Thrifty Food 
Plan, which is the underlying structure for the benefit amounts, has 
never represented what a family needs to purchase a minimally adequate 
diet, other than on an emergency basis. This shortfall of benefits was 
bad enough before, but it has been exacerbated by program changes in 
the 1980s and 1990s that, through several negative actions, cut 
benefits. (One 1996 change, freezing the standard deduction from 
income, was fixed prospectively by this year's farm bill; but much of 
the damage that the 1996 law and earlier changes have caused to benefit 
levels remains unremedied. As just two examples: benefits used to be 
adjusted for inflation twice a year, but now it is only once a year, 
which is particularly damaging in times of high inflation; and maximum 
benefit allotments were cut across the board by three percent in 1996.)
    As this nation seeks to reduce the effects of hunger and food 
insecurity, adequate food stamp allotments are essential. SNAP benefits 
should be based on a food plan that reflects what it actually costs to 
feed a family a healthy diet, and the income counting rules that 
determine what share of a full allotment a family gets should be based 
in current economic realities.
    The nation will need as well to have the program reach more low-
income people. This means removing some arbitrary barriers to access 
for very needy people that are still in Federal law. But it also means 
better efforts, at all levels of government, to connect already 
eligible people to benefits.
    Only 65 percent of eligible people actually receive food stamp 
benefits. In many states, cities, towns and rural areas the number is 
far worse, because there is too much red tape, or too little outreach, 
or state and local rules narrow and discourage participation. Last 
autumn the Food Research and Action Center released a report on Food 
Stamp Access in Urban America. That analysis found that in 2007, in the 
24 cities we looked at, the estimated rates of participation ranged 
from a low of 35 percent in San Diego, California to 98 percent in 
Detroit (Wayne County), Michigan. Three of the cities and counties with 
the lowest rates were in California--San Diego, Los Angeles, and 
Oakland (Alameda County).
    When states or cities, or any areas, forego food stamp benefits, it 
harms low-income people. But it also harms local economies. USDA has 
found that every dollar of food stamp benefits, paid for by the Federal 
Government, that enters a community produces nearly twice that much in 
economic activity. In other words, there is nearly a 2:1 multiplier 
effect. The food stamp benefits not only, therefore, reduce hunger and 
poverty, but they create jobs and other economic benefits that further 
combat hunger and poverty and boost the community economy.
    But states and cities are foregoing many billions of these dollars. 
Our 24 city study, for example, found that the cities were leaving 
$2.27 billion in federally-funded food stamp benefits unclaimed.
    The cost of hunger and food insecurity to individuals, families, 
communities and the nation is far too high to continue to tolerate 
these and other losses. It is too high a cost in terms of health, 
education, productivity, mental health, economic growth, and community 
development. It is within this nation's capacity to end hunger and food 
insecurity. We look forward to working together with the Members of the 
Subcommittee to make a stronger, more adequate and more accessible SNAP 
program a far more reliable bulwark against hunger in America.

    The Chairman. Thank you very much, Mr. Weill. And I want to 
thank all of the panelists for their statements.
    At this time, we will entertain questions from all of us, 
and I will begin myself and then call on Mr. Boustany and then 
Mr. Kagen to ask some questions as well. And my first question 
is for Dr. Nord. Could you please clarify the difference 
between food insecurity and hunger in terms of the gathered 
data?
    Dr. Nord. Can you repeat the question? I am not quite sure 
I understood.
    The Chairman. Could you please clarify the difference 
between food insecurity and hunger in terms of the gathered 
data.
    Dr. Nord. The data that we collect in the current 
population survey, which is our national annual survey, asks 
questions about economic access to food. So it really is 
directly a measure of that, of what we call food security, of 
whether households can afford enough food. We do not ask the 
kind of questions about physiological symptoms, about stomach 
pain or weakness or those kind of symptoms that you might want 
if that is the type--the kind of notion of hunger that you were 
trying to measure.
    So what we are measuring currently is economic access to 
enough food. This is the context in which hunger may occur, but 
we don't measure directly whether hunger ensues from those 
conditions.
    The Chairman. Okay. Thank you.
    Mr. Brown the Sodexho study estimates that limited 
education and workforce productivity costs Americans about $9.2 
billion annually. Could you explain the statistics in more 
detail?
    Dr. Brown. I will, Mr. Chairman. But I would like to do 
that by deferring to Dr. Shepard.
    The Chairman. Sure.
    Dr. Shepard. Thank you very much, Mr. Chairman. The way we 
did that was to look at the increased rate of absenteeism and 
of repeating a grade in school, which were higher for people 
that were food insecure: 1.66 times the rate of absenteeism and 
1.44 times the rate of missing a grade. Other literature, in 
turn, showed that those are related to a higher risk of then 
dropping out of school. And we related that to the economic 
loss when somebody drops out of school and has, over the entire 
rest of their life, has lower lifetime productivity. So linking 
those together gave us the $9.2 billion of cost. It is very 
likely conservative but that is what the available literature 
allowed, sir.
    The Chairman. Let me follow up on one of the things that 
you mentioned and about which we are very much concerned. As we 
try to address the dropout rate and the impact it is having on 
us--and a lot of times--what affects then in numbers do we have 
of the effects of hunger on the dropout rate too, as well as we 
begin to address it? We know that there are a lot of problems 
that cause dropout rates. But to what extent then does hunger 
impact the dropout rate that we have? Because we have a high 
number right now.
    Dr. Shepard. We couldn't--as my colleague Dr. Brown 
indicated, we searched literature for consequences of hunger. 
And we couldn't find a study that directly linked hunger or 
food insecurity with dropouts in one single study. So the 
available literature allowed us to look at it through this two-
step process of first finding that the two factors I mentioned 
of missed days and repeating grades were associated with 
hunger. And then other literature, in fact, showed that those 
studies--that those two factors were then related to dropouts. 
And so it certainly occurs and would welcome further--
literature would further link directly the available literature 
that showed it indirectly.
    The Chairman. Right. And then the other effects that it 
does have too as well is that hunger--is No Child Left Behind, 
definitely has an impact on a lot of our teachers now that are 
required to make sure that they are meeting the standards, to 
leave no child behind. But yet at the same time consideration 
is not given to the child that is undernourished or based on 
hunger too that impacts not only that child's learning ability 
but also you know the attendance as it was mentioned before. 
Could you elaborate a little bit more? And what effects does it 
really have on No Child Left Behind?
    Dr. Brown. I can tell you what effects it has on education 
and then you can extrapolate from that the No Child Left 
Behind, Mr. Chairman. This is going to sound crass. But we can 
easily take a child who is well nourished and doing well in 
school, manipulate her dietary intake and easily impact the 
next day her ability, or I should say her inability to 
participate in the educational process through the processes 
that I described about body triage of dietary energy that I 
mentioned earlier.
    In other words, simply missing a breakfast, one meal can 
have a serious impact on a child's ability to learn. A child, 
as you know from your own children, doesn't eat three meals a 
day. They graze pretty much all day long. And this is because 
children have small livers, and they store dietary energy in 
the form of glycogen, and they have to continually replenish 
their energy supply. And so the educational process for 
children is very susceptible or very dependent on an adequate 
supply of nutrient energy.
    The Chairman. Thank you. The next question that I have is 
for Dr. Shepard. Do the numbers that you use for food banks and 
local feeding programs as charitable contributions include the 
Federal funds?
    Dr. Shepard. No. Dr. Brown also worked on that. But it was 
the private fund, private charitable funds that amounted to $14 
billion. So the Federal direct support we didn't--it is part of 
the solution. We didn't consider that part of the consequence 
in this analysis.
    The Chairman. Okay. Thank you. Dr. Cutts, thank you for 
your insight and your moving testimony. And as a pediatrician 
who works directly with children and families who suffer from 
hunger-related issues you are in an unique position to comment 
on human impact and hunger in America. In your opinion, what is 
the most important thing that the government can do to end 
childhood hunger in America?
    Dr. Cutts. Big question. You know, I think the theme that I 
am hearing as I sit here very much is how the vital importance 
of food stamps--and I would agree with that, it is the number 
one hunger relief program in this country. And as I see the 
issue of access, I am very concerned as I hear your concern.
    I think especially as we see such disparities in hunger, I 
think we see great disparity in the way people access the 
program. And that is something that deserves a lot more 
attention. I, for example, am particularly concerned about the 
large immigrant population that I see who are children of 
immigrants and U.S. citizens, 96 percent of them, who access 
this program at very low rates, mainly due to fear. I am 
concerned about rural populations, who I believe access at 
lower rates due to stigma and the fact that they cannot remain 
anonymous in their community as they access this assistance 
program.
    So I think one of the highest priorities would be to take a 
look at this vital program, the number one assistance program 
and to really scrutinize what is the issue about access and 
utilization.
    The Chairman. Okay. Thank you. Mr. LeClair, as a Member of 
the California Delegation in Congress, your testimony is very 
relevant to me and all of my constituents in the 43rd 
Congressional District. In particular, the statistics that 
California is missing out on an additional $4 billion in 
economic activities annually because of the low food stamp 
participation rate, are staggering. Earlier this year I wrote 
Governor Arnold Schwarzenneger, urging him to invest more on 
state funds and food stamps outreach enrollment efforts because 
we want to be cost effective.
    As we look at the needs, and all of you have indicated that 
there is a need for an additional $12 billion, probably even 
going higher, but at the same time we would like to do that. 
But we also want to be cost effective in saying, are we really 
utilizing food stamps? We just don't want to just put in 
dollars, and we know that there is a need out there, but it is 
not being utilized effectively. And that is part of the problem 
that we have.
    So from your perspective, what steps should we improve for 
food stamp participation to make sure that we do do the 
outreach that needs to be done and that people are aware that 
there is a service for them as well? And I know that we changed 
the index too, as well, to allow more people to be eligible in 
this food stamp bill than in the previous ones. And then, of 
course, the eligibility that becomes a problem, too, as well. 
Who is actually eligible and to what extent can those 
individuals apply? So can you please reply?
    Mr. Manalo-LeClair. Sure. I think we take a number of steps 
with regard to outreach to let, particularly, the working poor 
know that they are eligible. Many people are under the 
misconception that if you work, you can't get food stamps. We 
need to start there. But that goes along with some efforts to 
actually make the program work better and become more 
accessible for people who are employed particularly during the 
hours of 9 to 5. Just a quick story, I was outside a food stamp 
office in Sacramento, and it was around 9 a.m. and a gentleman 
ran by me, nearly knocked me over. I asked him what the hurry 
was. He said, ``He had to get to work.'' What he had tried to 
do is go to the food stamp office at 7:30 a.m. that morning and 
get through the process before 9 a.m. so that he could get on 
the job. I said, ``Is it okay for you to be late?'' He said, 
``No. My boss is cool but not that cool.'' I think it is a good 
example of how the Food Stamp Program can be--here in Congress 
you can take some steps to make it easier for people who can't 
jeopardize their employment to complete the process.
    At the same time, we need to do a better job locally of 
making sure that, particularly, the working poor knows that the 
program is there and it provides substantial benefits. I think 
that is one of the things that families need to know more about 
in terms of what they can do to get help to support a healthy 
diet. And one of the things Congress can do is help make those 
benefits more substantial because working families do a bit of 
math in their head when they consider participation in the Food 
Stamp Program.
    If it takes an average of 5 hours and three trips to the 
food stamp office, and the perception is, you are only going to 
get $10 or $20 in benefits, families recognize that they don't 
want to take those risks and jeopardize their employment.
    So, improving access and increasing the benefits to make 
them more substantial, I think those kinds of steps would help 
really reach that working poor population that is struggling in 
our states.
    The Chairman. Well, thank you. I think we can increase and 
look at access, but yet how do we market it, and what kind of a 
plan needs to be done, and what kind of collaboration can we do 
with both the Federal, the state and the local entities in 
informing people that they are eligible for food stamps?
    And that is part of the problem. And that is what we see as 
legislators out here saying, ``Well, we would like to increase 
the funding, we see there is a need, but if it is 
underutilized, then we have X number of dollars that come back 
year after year after year because they are not being utilized 
by people that need it.'' And when we look at your statistics 
that come out and it says, okay, there is a high number of 
people that are going hungry in the United States, yet we have 
not done a good job in marketing. And that is what we need to 
do, is to make sure that we work together with all entities, 
and that includes our local churches and other organizations 
within the community, about the eligibility.
    And then changing the stigma, because I think the stigma of 
food stamps also--you know, it is very difficult. Because I 
received food stamps, and the stigma itself--it is like--I 
don't want to be labeled as a person that was receiving food 
stamps during that period of time. And I am glad that we have 
debit cards now at least to change part of it. It at least has 
a little integrity for someone that says, all right, I am on 
food stamps. But as you said, you described a particular 
individual that went to apply for food stamps and then had to 
rush back to work.
    And then somebody mentioned about the paperwork and the 
bureaucracy that is there. That also needs to be addressed and 
expedited. But at the same time, we also want to make sure that 
people are eligible and not fraudulently just applying as well, 
because we care about that in part of the concerns.
    Thank you.
    The next question, I guess I will turn it over to Mr. 
Boustany.
    Mr. Boustany. Thank you, Mr. Chairman.
    Dr. Nord, you gave us some statistics at the outset of your 
testimony. And nearly 11 percent were deemed food-insecure. Do 
we have more of a breakdown, rural versus urban, elderly, 
without transportation? Is there information available there?
    Dr. Nord. We do publish a breakdown by a number of 
demographic and economic categories. We have, for example, 
metropolitan-nonmetropolitan.
    Household structure is a fairly important factor. For 
example, single women with children have a rate of food 
insecurity around--I am just looking here--30 percent compared 
to a national average of 11. So household structure matters. 
Income, of course, we would expect that. So the rates for 
households with incomes below the poverty line are around 30, 
33 percent.
    We publish information for metropolitan versus 
nonmetropolitan areas, which is kind of a proxy for rural. 
There is not a great deal of difference there. There is a 
little bit more hardship in the more urban core areas and in 
the most rural areas.
    Mr. Boustany. Right.
    Dr. Nord. But the differences are not stark.
    Mr. Boustany. Well, the reason I raise that is because, if 
we are going to really try to target strategies dealing with 
this, we need to know what populations we are dealing with. 
Because one strategy perhaps for, say, urban Chicago is going 
to be different from rural Arkansas. And so I think it is 
really important to try to focus down and take that 11 percent, 
10.6 percent number that we have and really try to get those 
different groups, so we can target strategies.
    Mr. Carlson, from your standpoint, clearly we have 
increased funding for the program in the farm bill. But I know 
it is difficult for the Department here in Washington to make 
recommendations that would apply state by state, community by 
community. But I think one thing you could do would be to give 
us information on what kind of metrics should we be looking at 
and asking the states to provide to help us kind of focus in on 
these kind of individual strategies.
    Should the states be reporting information on steps to 
improve efficiency in the program, outreach and those kinds of 
things? Are we getting reporting data currently?
    Mr. Carlson. Yes, sir, there is a significant amount of 
information available about both what states are doing and what 
they are achieving. We report every year on the rate of 
participation among people who are eligible for food stamp 
benefits by state. We have an annual report on the 
characteristics of the people who are receiving food stamp 
benefits.
    Many states have engaged in a variety of outreach 
activities to try to reach those who are eligible for those 
benefits, supported in many ways by the Federal Government 
itself. We are in the fifth year of a national media campaign 
to inform people about the availability and benefits of the 
Food Stamp Program. There are numerous flyers, brochures and 
other information out there. There is a toll-free hotline 
number. We have put out almost $13 million in grants to states 
and communities to help them improve access.
    So there is a significant effort underway and a significant 
amount of information about what is being achieved.
    Mr. Boustany. And clearly that is a big effort, but it is 
still not reaching far enough, because when a state like 
California claims that we have access--now, I don't want to 
cast blame on the Department, because I don't think the 
Department can do this alone. I think it has to be a top-down 
and a bottom-up effort. And I want to get into this aspect of 
it.
    But is the Department sharing best practices and 
information in that regard? Is this information that you are 
collecting, is it being used in a very thoughtful way to 
provide guidance to the states?
    Mr. Carlson. We believe it is, sir. The agency has created 
an outreach coalition, consisting of partners here in 
Washington and across the country. Our regions work very 
closely with states across the country to ensure that 
information on best practices is available.
    And I would point out, if I may, that we agree 
wholeheartedly that more can be done and that more needs to be 
achieved. But in talking about the fact that only \2/3\ of all 
the people who are eligible for benefits receive them, it is 
also important to understand that about 80 percent of the 
benefits that we could pay out if everyone who was eligible was 
participating in fact are being paid out.
    So we are doing a pretty good job. We, in partnership with 
the states and communities across the country, are doing a 
pretty good job of reaching those who are in greatest need.
    Mr. Boustany. I thank you for your answer.
    Dr. Brown, in your testimony you spoke about we could come 
close to seriously ending this problem if we strengthen 
nutrition programs and, particularly, invested $10 billion to 
$12 billion more over current spending.
    We have taken that step in the farm bill, a little over $10 
billion. But clearly, with today's inflation, energy costs, 
everything else, that number is going to be higher. So, in a 
sense, we are chasing this on the expenditures, but it seems to 
me we still have a lot of inefficiencies. As we heard from the 
State of California, that even though the program is there, 
many folks aren't accessing it.
    What else do you recommend besides the additional 
investment of dollars?
    Dr. Brown. I actually have been sitting here impressed with 
the demeanor of each of you, your bipartisanship, your clear 
concern about the problem, both physicians and non-physicians 
and pretend physicians up there--or honorary ones, I should 
say, Mr. Chairman.
    [Laughter.]
    The Chairman. Thank you for that clarification.
    Dr. Brown. So with the great respect that I have for you, 
and seeing you and hearing you, I want to say in response to 
that question that sometimes I think we make problems more 
difficult than they actually are.
    Other industrialized nations have virtually eradicated 
hunger. The percentage of hunger that we have in our nation, 
hunger, food insecurity, is excessively high compared to other 
western democracies. If we were hearing that our military 
members were going hungry, we would figure out a way to fix 
that in about a week.
    And they are not going hungry, except when they come back. 
We now are seeing soldiers coming back from Iraq and 
Afghanistan who are appearing in soup kitchens and food 
pantries across the country. That is a parenthetical statement.
    We do know how to fix problems, and we can end hunger in 
America, as other nations have done.
    The low participation rate, in my view, is not one of the 
bigger problems. And I will explain why. I am not saying it is 
not a problem at all, as you are suggesting. We want everybody 
who is needy and eligible to receive assistance. So let's just 
stipulate to that. But we can increase the low participation 
rate, if we do several things.
    Many elders will tell you that they will not bother 
applying for food stamps because of the limited minimum level 
or the bureaucratic hassles that they have to go through--
having to come out of their homes, going to the office, and so 
on. Similarly, a lot of families get knocked off through what 
we in the social science community euphemistically refer to as 
``bureaucratic terrorism.'' That is, if you call somebody back 
to the office enough times, you are asking them for such 
ridiculous amounts of detailed information or they have to take 
off work to come back, they are not going to be on the program.
    So, recognizing that what you are raising about the low 
participation levels is a legitimate thing to raise, I think 
that is not the main thing to raise. The main thing to raise 
are the minimum levels, figuring out ways that we can ease the 
bureaucratic requirements, while still maintaining the 
economic, financial integrity of the program and providing food 
stamps at a level sufficient enough to help people have enough 
to eat throughout the month.
    Mr. Boustany. And the figures you gave us, the $10 billion 
to $12 billion over current spending, would that cover those 
bureaucratic changes? Or do you think it is going to take--I 
mean, you gave us the $10 billion to $12 billion. Let's accept 
it is going to be a little higher because of inflation, fuel 
costs and everything else.
    Dr. Brown. Yes.
    Mr. Boustany. That figure that you are basically citing, 
does that cover all these bureaucratic changes, or is it going 
to take more beyond that?
    Dr. Brown. No, no. By the way, this figure came from the 
national anti-hunger organizations, including Mr. Weill's 
organization and about 10 other national hunger organizations, 
Bread for the World and so on.
    We were simply looking at the system as it is and saying, 
what degree of further input--and all of that is not food 
stamps, but the bulk of it is--what degree of further input or 
expansion of existing programs could virtually eliminate hunger 
in the nation? And we came up with that figure.
    But if we do that, we also ought to take the steps that you 
keep asking questions about, about increasing the participation 
rate. So I don't mean to minimize it. I am simply saying that 
is not the biggest issue.
    Mr. Carlson said, for example, that they are serving about 
80 percent of the need there. As a rule of thumb, that is 
fairly high for a Federal program, because you are always going 
to have some people who don't want the program, who are moving, 
whatever. So for the WIC program, for example, it is a bit over 
that now, but everybody is pretty satisfied that we have high 
participation in the WIC program.
    Mr. Boustany. I appreciate your thoughtful answer.
    Mr. Chairman, I have one more question, if I could.
    The Chairman. Sure.
    Mr. Boustany. Dr. Cutts, you spoke on what you and your 
colleagues are doing at the medical center to help families 
learn about and begin participating in the Food Stamp Program.
    Tell us in more detail about what steps are being taken at 
the ground level in a hospital such as yours to really educate 
families on all these programs, whether it is the Food Stamp 
Program or WIC or other local programs.
    I mean, for instance, in my hometown we have a food bank. 
We also have a program called Meals on Wheels that takes care 
of the elderly that cannot get out.
    Do you have a formalized program in the hospital, an 
outreach program?
    Dr. Cutts. Let me try and answer your question.
    In terms of the children, the young children who we survey 
for C-SNAP, part of that process with every family is to offer 
resources. And as that project was conceptualized, it was 
important to us that we not, as a colleague might say, ``We 
don't cure a fever by taking a temperature.'' We are not just 
collecting data; we are doing an intervention at the time that 
the data is collected.
    So for that population, through the research we are doing 
an intervention. I think in the broader scale at this 
institution, it is a much harder question to answer. HCMC is a 
county-supported hospital. And like most county hospitals, 
which are dwindling, as you know, in number, the finances of 
that equation are extremely tenuous. Our social work staff has 
been cut and cut and cut. And I know I am not telling you 
something you wouldn't be aware of.
    So I would ask you, whose responsibility and where does 
that funding come from to do what needs to be done to do an 
intervention such as the one you propose? It is a real concern. 
And I think it is going to take time, it is going to take 
money. And I think there are some ideas about how it could be 
done, and been trialed in various situations, that would be 
lovely to see funding to do locally.
    Mr. Boustany. Thank you.
    The Chairman. Thank you.
    I have a question for Mr. Weill.
    Since you are familiar with our budget challenges, as well 
as the new changes in nutrition policies we passed in the farm 
bill, could you comment on how much more funding do you think 
Congress should legislate? And then specifically, any 
additional funding that would be a PAYGO problem that would get 
scored for it? And if so, could you get 90 percent 
participation? Wouldn't that cover a large portion of the 
remaining needs?
    Mr. Weill. Well, I hope you are not asking me to describe 
in detail where the money is going to come from.
    I will say that the short-term stimulus that I and others 
on the panel talked about presumably wouldn't be subject to 
PAYGO rules. In the long term, we need to invest what is needed 
to address this problem. Dr. Brown has given you an approximate 
figure. And I think that if we invested that much money, it 
would have a profound effect on the food-insecurity rates in 
this country, on the hunger rates, and a profound positive 
effect on schooling and health and health-care costs and so on.
    And so I think we are all agreed that the two most 
essential things to be done are to increase benefits across the 
board to more adequate levels for all beneficiaries in the 
program, as well as increasing the minimum benefit again--and 
we appreciate that the Committee did that in the farm bill, and 
that is an incredibly important step forward--and to improve 
access and get participation rates up around 90 percent, which, 
as indicated, as you know, is close to the best one can do in 
these programs.
    If that costs in the neighborhood of $10 billion to $15 
billion a year and PAYGO rules are still in effect next year, 
there are many places, obviously, to find that money. I would 
point out that the program spends a considerably smaller 
portion of the Federal budget or of the gross domestic product 
than it did 20 years ago, before there were some program cuts 
in the 1980s and 1990s--or maybe 30 years ago--before there 
were program cuts, before other changes reduced spending on the 
program as a share of the economy as a whole.
    So we are talking about, in a sense, restoring strength to 
the program and restoring the program as a spending mechanism 
as a share of the economy to where it was a while ago, not 
adding vast new sums that this country has never spent before 
or contemplated before.
    The Chairman. Thank you.
    And one final question, and I am going to throw it open to 
any one of you that would like to answer the question or try to 
attempt to answer the question.
    As we look at the need for food stamps and benefits and 
access to it, and we have explored some ideas, and trying to be 
cost-effective, too, at the same time, and allowing individuals 
to participate, and knowing the responsibility of the Federal 
and knowing the responsibility of the state and local 
communities and others. I know that there is a cost factor 
here, but have we ever utilized mobile social workers when we 
talk about seniors and others that are not even applying for 
food stamps that can go to their location instead of someone 
having to go to a county agency to apply for food stamps?
    Have we tried that both at the Federal or state, utilizing 
mobile units that can go out there with social workers to try 
to get people that are eligible to apply for food stamps, since 
we have a high number of people that are going hungry?
    Mr. Carlson. Mr. Chairman, if I might, there have been a 
number of efforts in that direction. The one that comes 
immediately to mind, perhaps not exactly what you are 
describing, but a program in the State of Michigan known as MI 
CAFE, where workers are periodically outstationed in senior 
centers, elderly housing and so forth, places outside of the 
normal welfare office where people work, live and play.
    I think what we learned from much of that experience is 
that it can be effective. It can also be relatively 
inexpensive. And it really reinforces the notion that, in many 
instances, having information about potential eligibility and 
benefits is not enough, that many of these populations require 
more intensive, hands-on assistance in order to understand what 
the program rules and requirements are, in order to obtain the 
benefits they are entitled to.
    The Chairman. Thank you.
    Would anybody else like to----
    Mr. Manalo-LeClair. Yes, I would also like to mention a 
promising strategy in California, and it also goes back to 
address some of the earlier topics of stigma in the program.
    In California, both in the Central Valley and in Los 
Angeles, there have been mobile units that have gone to 
community health clinics, where people are receiving services, 
but also there has been tremendous efforts to enroll people in 
various health care programs such as our State Children's 
Health Program as well as Medicaid.
    And with this effort, it works very well in terms of going 
to where needy people are, but it also helps remove the stigma, 
because food stamps, if they are seen more as a health program, 
the working poor is more receptive to it.
    And so, this is clearly an outreach strategy, but one of 
the other things I mentioned earlier is the need for improved 
access. If we can do more work, both at these mobile locations 
but throughout the state, of connecting people who do get 
health care services so that food stamps become sort of add-on, 
a nutrition benefit that supports the health investment that we 
are making through programs like Medicaid. If we can do more to 
align those programs and connect them, I think we could do a 
much better job of removing stigma, reaching those working 
people who are struggling in our state.
    The Chairman. Thank you.
    Mr. Weill?
    Mr. Weill. There is more and more outreach and prescreening 
being done by food banks, by anti-hunger advocates in the 
community, in public housing, by health providers, by earned 
income tax credit organizations. So a lot of prescreening is 
being done that tells people whether they are probably eligible 
or not, and roughly for how much.
    And what has been found is that when people learn how much 
they would be eligible for--when they don't know, they tend to 
estimate low. When they find out how much they would be 
eligible for, even though it is not adequate, it surprises them 
on the high side, and they are more likely to apply. And then 
the actual processing is done by state employees.
    I would just add, there is an interesting model in New 
Orleans, in Louisiana, at Kingsley House, a program called 
Walkers and Talkers, that goes door to door doing both Medicaid 
and SCHIP outreach and food stamp outreach that has been very, 
very successful.
    The Chairman. Thank you.
    Dr. Shepard?
    Dr. Shepard. Yes, there has also been interesting work with 
other behaviors that are stigmatized that might be useful here, 
with people who have drug or alcohol problems, where there is a 
similar goal of trying to engage them in treatment. An approach 
that has been very promising there is called response-driven 
sampling, in which members of that community recruit their own 
friends and colleagues and, in some programs, get incentives. 
So perhaps a person might get a bag of groceries for bringing 
in somebody else who proves to be eligible for this program.
    So a model like that might provide double duty of both 
being a relatively inexpensive way of bringing people in, 
because you are not paying them except when they are 
successful, as well as providing some additional help to 
members of this community for doing this extra service.
    The Chairman. Thank you.
    And one final question--I am going to call on Mr. 
Boustany--is we have increased on the farm bill and allowed 
veterans and our military personnel now--and maybe statistics 
that would tell us how many of our military personnel are 
actually utilizing food stamps. And hopefully that we can do a 
study there, too, as well, to see if it is cost-effective, are 
they utilizing it, and to what extent are the military 
personnel utilizing food stamps that they are eligible for?
    Are there any numbers that have been done at this point in 
reference to the military?
    Mr. Carlson. Mr. Chairman, the information we have in 
answer to that question is relatively old, but the Department 
of Defense has done periodic examinations of military personnel 
and their utilization of food stamps. My recollection is, the 
last time they looked at this, they estimated roughly 10,000 to 
12,000 service members qualified for and received food stamp 
benefits.
    That was a number of years ago, so the situation may have 
changed. But I don't believe we have more current information.
    The Chairman. Thank you.
    Mr. Weill, did you want to----
    Mr. Weill. We did an estimate of the number of veterans who 
received benefits about a year ago, and I am trying to remember 
exactly what it was. It was well in excess of a hundred 
thousand at any given time. We will provide that to the 
Committee, because I don't trust my memory on the exact number.
    The Chairman. I appreciate that very much. Thank you.
    Mr. Boustany?
    Mr. Boustany. Thank you, Mr. Chairman. Just a few more 
questions, and then perhaps a comment.
    A couple of you just made note of some best practices that 
are very useful and interesting. And that is, how do you bring 
a service closest to the person or family in need? And that is 
more of what we need to get from you, so that we can share that 
type of information.
    I recently partnered with our State Secretary of Health and 
Hospitals back home in my Congressional district to hold SCHIP 
enrollment programs. And we got the press to participate so 
that the impact was outside the room, as well, and urged 
businesses, schools, churches to get the word out. And it has 
been very successful. And I intend to hold one in each of the 
parishes--we have parishes in Louisiana instead of counties--I 
am going to hold one in each of my parishes. The two have been 
very successful so far.
    I think you rightly point out the linkage between 
nutrition, health care, education and workforce. These are 
linked. And one of the things I have tried doing in my 
hometown, and I want to expand this effort, is to get all the 
nonprofits together and ask them to coordinate their efforts. 
Because a lot of them are duplicating efforts and actually 
spending money in duplicative ways, whereas I think, if they 
coordinated efforts, you can leverage what you have. And, 
actually, the byproduct of that is greater than the sum of the 
parts. And that is something that perhaps might work in 
different communities and states.
    I guess the final challenge is, how do we structure a 
layered safety net? Because today we have focused on the 
Federal program, but how do we bring these nonprofits into the 
equation, our churches into the equation, to make sure that we 
do have a structured safety net so that perhaps no family goes 
hungry? That may be the mechanism by which we get beyond that 
80 percent participation and get close to 100 percent 
participation.
    So if anyone wants to comment on any of those. I guess it 
is really not a question, but I just wanted to throw that out. 
Thank you.
    The Chairman. Dr. Brown?
    Dr. Brown. Congressman, I am glad that you raised those 
points, in particular the last point. Because I have often 
heard, in talking with Members and also various 
Administrations--and because I go back a while, I am talking 
about Democratic and Republican Administrations--and I have 
heard people talk about the public-private initiative to reduce 
hunger in the nation. And I think that it is important to 
remember that, while we do need that public-private initiative 
and the type of activities that you have just suggested and 
other Members have suggested in terms of outreach and pulling 
people in and so on, that our goal is not to create more and 
more charity in America. It is to have a nation where we need 
very little charity at all.
    We don't want to become or continue to be a nation of soup 
kitchens and food banks. That is not really America. That is 
not what our aspirations are all about.
    And while it is much more productive in terms of nutrient 
efficiency to feed people through food stamps, and also does a 
lot more for their own integrity, our goal isn't even to have a 
nation where we have more and more people on food stamps.
    We want to have a nation where people can be independent, 
self-sufficient and feed themselves in their own homes from 
money that they earn in the marketplace. That is the long-term 
goal.
    But the first thing we ought to do is to have a vision of 
our society where we don't have this enormous charitable 
sector, because we have expanded programs, they reach people 
adequately. And then we can begin working on those economic 
issues that pertain to employment and wages and so on, so that 
we can start decreasing the food stamp roles as well.
    Mr. Boustany. But, Dr. Brown, I am deeply troubled by the 
fact that we have 35 million Americans who--we really haven't 
made a dent in that. It seems to be a constant and slightly 
growing figure.
    And so I would submit that we have to look at all the 
possible tools available. And this great country has a strong 
tradition of charitable giving. So I wouldn't just shove it 
aside. I think it is an important component. And I do think it 
helps to get beyond the stigma question that most of you have 
pointed out that is a barrier to the Federal program working.
    So I am just simply saying that we have to have--we ought 
to make use of a coordinated, layered effort to reduce hunger. 
Because that is ultimately the goal. And one way or another, 
somebody is paying for it, whether it is the taxpayer or 
charitable contributions. To my mind, as long as we are taking 
care of the problem and doing it as efficiently as possible, I 
think that is my measure of success.
    Dr. Brown. Yes. Congressman, the last thing that I want to 
do is get rid of that charitable sector right now, because 
these are the people who literally have their fingers in the 
dike. I am saying, but what is our longer-term vision, a decade 
or 2 down the road?
    Speaking of stigma, I can tell you that one of the worst 
things is to watch a family take their children into a soup 
kitchen to feed them. I mean, think how dehumanizing that would 
be for any of us to have to do that. They are grateful for the 
food, they are very grateful for the food, but it feels awful 
to have to go into facilities like that.
    Mr. Boustany. No, I have been in soup kitchens, and I 
understand that. And, of course, my time at the Charity 
Hospital in New Orleans, where we treated the poorest of the 
poor, gave me plenty of experience with the difficulties we had 
with postoperative patients who we discharge and there is 
nothing out there to provide for them. So I am very, very 
sympathetic to all this. And, ultimately, what we want to do is 
to try to take care of the problem. And I guess the bottom line 
is I am disturbed by this 35 million figure, that we just 
haven't seemed to have found a way to reduce that.
    Thank you.
    The Chairman. Thank you very much, Mr. Boustany.
    And, yes, you are correct in terms of trying to find the 
solution to reduce the hunger here in the United States, not 
only the 35 million or potentially even more now that are 
losing their jobs and foreclosing and have lost--and the high 
gas prices. It is either we pay now or pay later. And the 
burden is on our taxpayers to address this particular problem.
    And, hopefully, we can find effective ways to provide the 
kind of assistance, because, in the long run, it is going to 
help both the public and the private sectors that are both 
impacted in terms of our costs, and our schools, too, as well, 
that are impacted. So we look at hospitals that are impacted, 
with the problems that are there, along with the physicians and 
other individuals.
    So, in closing, before we adjourn, I would like to thank 
each of you for participating in today's hearing, on your 
thoughtful testimony. Your knowledge and research will, I hope, 
be used by Congress to find the best policies and solutions to 
end hunger in America. That is, hopefully, that we can do that. 
We can look at short and long range to take care of many of the 
people that are there, too, as well. It will also help make us 
more aware of both economic and human effects on hunger in our 
own communities and neighborhoods.
    And, again, I want to thank each one of you for your 
testimony here today.
    And then I will allow Mr. Boustany to have a closing 
statement. And then I will, before adjourning, read some little 
comments.
    Mr. Boustany. Thank you, Mr. Chairman. This has been a good 
dialogue. I appreciate your thoughtful approach to all this and 
the efforts you are making. And I found this a helpful start 
for us here in Congress, as we try to deal with this difficult 
problem.
    And so I look forward to working with Chairman Baca as we 
try to dig into this a little further and to continue to work 
with you. And I congratulate you on the great work that you are 
doing in the trenches. Thank you.
    The Chairman. In a bipartisan fashion, even though he is 
here right now, I will allow Mr. Moran to either make a 
statement or ask a question at this point.
    Mr. Moran. Mr. Chairman, thank you very much.
    I just would like to indicate that my absence from this 
hearing does not reflect my interest, but the schedule on the 
House floor. And I appreciate the opportunity to read the 
testimony of the witnesses that you all have heard from this 
morning.
    These are important topics. And I appreciate the attention 
that this Subcommittee is giving to the issue of hunger in the 
United States.
    I am also grateful that one of our other subcommittees in 
Agriculture held a hearing last week regarding hunger issues in 
the world. And I think it is important for this Committee to 
recognize its role not only in farm and agricultural policy but 
in the nutrition aspect of our jurisdiction.
    So I thank the Chairman for his interest in this topic, and 
I am glad to join him here briefly, both he and the Ranking 
Member, Mr. Boustany.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Moran.
    With that, before we adjourn, under the rules of the 
Committee, the records of today's hearing will remain open for 
10 days to receive additional material and supplement the 
written responses from witnesses to any questions posed by 
Members of the panel.
    With that, the hearing of the Subcommittee on Department 
Operations, Oversight, Nutrition, and Forestry is adjourned. 
Thank you.
    [Whereupon, at 11:34 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
      

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                  <all>

</pre></body></html>
